APPENDIX

23092.3

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:

Appendix D:

Appendix E:

23092.3

Court of appeals opinion,
Apr. 29, 2021 ............................................ 1a
Bankruptcy court opinion,
July 15, 2019........................................... 38a
Court of appeals order
granting direct appeal,
Nov. 6, 2019 ............................................ 56a
Parties’ joint certification of
direct appeal,
Sept. 13, 2019 ......................................... 58a
Statutory provisions.............................. 63a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2240
In re: CIRCUIT CITY STORES, INCORPORATED;
CIRCUIT CITY STORES WEST COAST,
INCORPORATED; INTERTAN, INC.; VENTOUX
INTERNATIONAL, INC.; CIRCUIT CITY
PURCHASING COMPANY, LLC; CC AVIATION,
LLC; CC DISTRIBUTION COMPANY OF
VIRGINIA, INC.; CIRCUIT CITY PROPERTIES,
LLC; KINZER TECHNOLOGY, LLC; ABBOTT
ADVERTISING AGENCY, INCORPORATED;
PATAPSCO DESIGNS, INC.; SKY VENTURE
CORP.; PRAHS, INC. (N/A); XSSTUFF, LLC;
MAYLAND MN, LLC; COURCHEVEL, LLC;
ORBYX ELECTRONICS, LLC; CIRCUIT CITY
STORES PR, LLC,
Debtors.
------------ALFRED H. SIEGEL, Trustee of the Circuit City
Stores, Inc. Liquidating Trust,
Plaintiff-Appellee,
v.
JOHN P. FITZGERALD, III, Acting United States
Trustee for Region 4,
Defendant-Appellant.
(1a)

2a
------------ACADIANA MANAGEMENT GROUP, LLC;
ALBUQUERQUE-AMG SPECIALTY HOSPITAL,
LLC; CENTRAL INDIANA-AMG SPECIALTY
HOSPITAL, LLC; LTAC HOSPITAL OF EDMOND,
LLC; HOUMA-AMG SPECIALTY HOSPITAL,
LLC; LTAC OF LOUISIANA, LLC; LAS VEGASAMG SPECIALTY HOSPITAL, LLC; WARREN
BOEGEL; BOEGEL FARMS, LLC; THREE BO’S,
INC.,
Amici Supporting Appellee.
No. 19-2255
In re: CIRCUIT CITY STORES, INCORPORATED;
CIRCUIT CITY STORES WEST COAST,
INCORPORATED; INTERTAN, INC.; VENTOUX
INTERNATIONAL, INC.; CIRCUIT CITY
PURCHASING COMPANY, LLC; CC AVIATION,
LLC; CC DISTRIBUTION COMPANY OF
VIRGINIA, INC.; CIRCUIT CITY PROPERTIES,
LLC; KINZER TECHNOLOGY, LLC; ABBOTT
ADVERTISING AGENCY, INCORPORATED;
PATAPSCO DESIGNS, INC.; SKY VENTURE
CORP.; PRAHS, INC. (N/A); XSSTUFF, LLC;
MAYLAND MN, LLC; COURCHEVEL, LLC;
ORBYX ELECTRONICS, LLC; CIRCUIT CITY
STORES PR, LLC,
Debtors.
-------------

3a
ALFRED H. SIEGEL, Trustee of the Circuit City
Stores, Inc. Liquidating Trust,
Plaintiff-Appellant,
v.
JOHN P. FITZGERALD, III, Acting United States
Trustee for Region 4,
Defendant-Appellee.
------------ACADIANA MANAGEMENT GROUP, LLC;
ALBUQUERQUE-AMG SPECIALTY HOSPITAL,
LLC; CENTRAL INDIANA-AMG SPECIALTY
HOSPITAL, LLC; LTAC HOSPITAL OF EDMOND,
LLC; HOUMA-AMG SPECIALTY HOSPITAL,
LLC; LTAC OF LOUISIANA, LLC; LAS VEGASAMG SPECIALTY HOSPITAL, LLC; WARREN
BOEGEL; BOEGEL FARMS, LLC; THREE BO’S,
INC.,
Amici Supporting Appellant.
Appeals from the United States Bankruptcy Court
for the Eastern District of Virginia, at Richmond.
Kevin R. Huennekens, Bankruptcy Judge.
(3:08-bk-35653)
Filed: April 29, 2021
Before KING and QUATTLEBAUM, Circuit Judges,
and TRAXLER, Senior Circuit Judge.
OPINION

4a
KING, Circuit Judge:
These consolidated appeals present two constitutional
issues concerning changes made to the bankruptcy laws
nearly four years ago. Alfred H. Siegel, Trustee of the
Circuit City Stores, Inc., Liquidating Trust (the “Circuit
City Trustee”), sought a ruling in 2019 on his liability for
quarterly fees assessed under a 2017 Amendment to the
bankruptcy fees provisions of the United States Code
(the “2017 Amendment”). In response, the Bankruptcy
Court for the Eastern District of Virginia ruled that the
fees aspect of the 2017 Amendment is unconstitutional.
See In re Circuit City Stores, Inc., 606 B.R. 260 (Bankr.
E.D. Va. 2019), ECF No. 2 (the “Bankruptcy Opinion”).
That ruling was based on a perceived lack of uniformity
between quarterly fees in the two types of bankruptcy
court districts, that is, U.S. Trustee districts and Bankruptcy Administrator districts.
John P. Fitzgerald, III, the Acting U.S. Trustee for
Region 4 (the “U.S. Trustee”), maintains that the Bankruptcy Opinion erred in its uniformity ruling and has appealed. The Circuit City Trustee, on the other hand, has
cross-appealed a separate aspect of the Opinion that rejected his claim concerning retroactive application of the
2017 Amendment. In November 2019, the Circuit City
Trustee and the U.S. Trustee jointly certified these appeals to this Court. 1 We granted their joint petition for
permission to appeal and consolidated the appeals. The
1
The U.S. Trustee and the Circuit City Trustee jointly sought permission to appeal from this court, pursuant to 28 U.S.C.
§ 158(d)(2)(A). That provision confers jurisdiction on a court of appeals to consider a direct appeal from a bankruptcy court, bypassing
the district court, if the statutory conditions are satisfied.

5a
U.S. Trustee’s appeal is designated as No. 19-2240, and
the Circuit City Trustee’s cross-appeal is designated as
No. 19-2255.
As explained below, we rule in favor of the U.S. Trustee in each appeal. That is, we reverse the Bankruptcy
Opinion’s uniformity decision challenged by the U.S.
Trustee, and we affirm the Opinion’s retroactivity decision challenged by the Circuit City Trustee. As a result,
we remand to the bankruptcy court for such other and
further proceedings as may be appropriate.
I.
A review of the pertinent background and operations
of the bankruptcy courts is essential to an understanding
of these proceedings. Before addressing the legal issues
presented, we will discuss some historical context of those
courts, as well as the factual background of these proceedings.
A.
The bankruptcy courts operate under two distinct
programs for the handling of their proceedings—the
Trustee program and the Bankruptcy Administrator program. Congress initiated this two-program system in
1978 when it launched the Trustee pilot program within
the Department of Justice. The Trustee pilot program
was successful and became a permanent fixture in 1986.
Eighty-eight of the 94 judicial districts operate with U.S.
Trustees. The other districts—in Alabama and North

6a
Carolina—utilize the Bankruptcy Administrator program, which is overseen by the Judicial Conference of the
United States. 2
These bankruptcy court programs utilize distinct
funding sources. The judiciary’s general budget, overseen by the Judicial Conference, funds the Bankruptcy
Administrator program. On the other hand, the bankruptcy debtors in Trustee districts primarily fund the
Trustee program. Although annual congressional appropriations provide support for the Trustee program, Congress anticipated that debtor-paid fees would completely
offset the program’s cost. Debtor fees include Chapter 11
quarterly fees, which are based on quarterly “disbursements” that debtors make to their creditors until the
cases are “converted or dismissed.” See 28 U.S.C.
§ 1930(a)(6)(A).
At their inception, the Bankruptcy Administrator districts were not required to pay quarterly fees. In 1994,
however, the Ninth Circuit ruled this distinction unconstitutional, explaining that the statutory imposition of
such quarterly fees in certain districts but not in others
was without justification and thus contravened the Bankruptcy Clause of the Constitution. See St. Angelo v. Victoria Farms, Inc., 38 F.3d 1525, 1529, 1531-32 (9th Cir.
1994), amended by 46 F.3d 969 (9th Cir. 1995). In reaction
to that decision, Congress empowered the Judicial Conference to fix and assess quarterly fees in the Bankruptcy
The exclusion of Alabama and North Carolina from the Trustee program was intended to be temporary. More than twenty years later,
however, Congress confirmed the special status of the six judicial districts in those two states as Bankruptcy Administrator districts. See
Federal Courts Improvement Act of 2000, Pub. L. No. 106-518 § 501,
114 Stat. 2410, 2421-22 (2000).

2

7a
Administrator districts that were “equal to those imposed” in the Trustee districts. See 28 U.S.C. § 1930(a)(7)
(“In districts that are not part of a United States trustee
region . . . , the Judicial Conference may require the
debtor in a case under chapter 11 of title 11 to pay fees
equal to those imposed by paragraph (6) of this subsection.”). 3 In 2002, the Judicial Conference began to impose
quarterly fees in the Administrator districts that were
consistent with the fees specified for the Trustee districts. The Administrator districts’ quarterly fees are
then deposited into a fund that offsets the general judicial
branch appropriations rather than Trustee operations.
Id. Until January 1, 2018, all Chapter 11 debtors, regardless of district, paid quarterly fees consistent with the
same disbursement formula. At that point in time, a funding deficit in the Trustee program disrupted the status
quo.
For several decades, Congress’s annual appropriations to the Trustee program were entirely offset by the
quarterly fees. The mid-2010s witnessed a decline in
bankruptcy filings, however, and the Trustee program
was no longer self-sustaining. Fueled by concerns that
the financial burden might shift to taxpayers, Congress
enacted the 2017 Amendment. 4 That Amendment altered
As discussed further in footnote 10, in January 2021—after this appeal was argued—Congress amended § 1930(a)(7) of Title 28, replacing the word “may” with the word “shall.” See infra note 10.
3

4
The 2017 Amendment provision at issue in these appeals is codified
in § 1930(a)(6)(B) of Title 28 and provides in pertinent part as follows:

During each of fiscal years 2018 through 2022, if the balance in
the United States Trustee System Fund as of September 30 of
the most recent full fiscal year is less than $200,000,000, the quarterly fee payable for a quarter in which disbursements equal or

8a
the quarterly fees formula and increased the fees due in
large Chapter 11 bankruptcy cases, on a temporary basis,
during fiscal years 2018 through 2022. This fee increase
is conditional, and it is only applicable if the Trustee Fund
contains a balance of less than $200 million as of September 30 of the most recent fiscal year. The quarterly fee
increase only applies to those bankruptcy debtors with
disbursements of $1,000,000 or more in any quarter. If
those criteria are satisfied, the quarterly fee is then the
lesser of 1 percent of such disbursements, or $250,000.
This potential fee is a substantial increase from the previous maximum fee of $30,000.
Initially, only those bankruptcy debtors in the Trustee districts incurred fee increases as a result of the 2017
Amendment. Several Trustee district bankruptcy courts
applied the increased fees to quarterly disbursements
that postdated the Amendment. As a result, large Chapter 11 debtors with bankruptcy cases pending on January
1, 2018, incurred increased fees for disbursements beginning in the first quarter of 2018. The bankruptcy debtors
in the Administrator districts, however, were not subjected to increased quarterly fees. The Judicial Conference adopted an amended fee schedule in September
2018 and applied the increased fees to those bankruptcy
cases filed in the six Bankruptcy Administrator districts
on or after October 1, 2018. Consequently, any debtor in
exceed $1,000,000 shall be the lesser of 1 percent of such disbursements or $250,000.
See 28 U.S.C. § 1930(a)(6)(B). Congress specified that the 2017
Amendment “shall apply to quarterly fees payable under section
1930(a)(6) . . . for disbursements made in any calendar quarter that
begins on or after the date of enactment.” See Bankruptcy Judgeship
Act of 2017, Pub. L. No. 115-72, § 1004, 131 Stat. 1224, 1232 (2017).

9a
an Administrator district that filed for bankruptcy prior
to October 1, 2018, does not owe increased quarterly fees,
regardless of how long the bankruptcy case remains
pending.
B.
1.
Circuit City Stores, Inc., and its affiliates (collectively
“Circuit City”) operated a chain of consumer electronic
retail stores throughout the United States. In 2008, Circuit City filed for Chapter 11 bankruptcy protection in the
Eastern District of Virginia, which is a Trustee district.
In 2010, the bankruptcy court in eastern Virginia confirmed Circuit City’s Chapter 11 liquidation plan. That
plan provides, with respect to “fees that become due and
payable” under 28 U.S.C. § 1930, that the Circuit City
Trustee “shall pay [those] fees to the U.S. Trustee until
the Chapter 11 Cases are closed or converted and/or the
entry of the final decrees.” See J.A. 110. 5 Circuit City’s
bankruptcy proceedings remained pending on January
2018, after the 2017 Amendment went into effect.
The Circuit City Trustee initially paid the increased
quarterly fees. His willingness to pay those fees diminished, however, when the bankruptcy court in the Western District of Texas ruled in February 2019 that the 2017
Amendment is unconstitutional because it creates nonuniform bankruptcy laws in contravention of the Bankruptcy Clause, and also because it is unconstitutionally
retroactive. See In re Buffets, LLC, 597 B.R. 588 (Bankr.

5
Citations herein to “J.A. ___” refer to the contents of the Joint Appendix filed by the parties in this appeal.

10a
W.D. Tex. 2019). 6 On March 28, 2019, the Circuit City
Trustee filed for similar relief in the Eastern District of
Virginia, seeking to limit his liability for quarterly fees
assessed under 28 U.S.C. § 1930(a)(6). See generally J.A.
348-63. The Circuit City Trustee maintained that he was
excused from complying with the revised quarterly fee
schedule for the reasons adopted by the Buffets bankruptcy court decision in Texas—that is, the 2017 Amendment impermissibly created nonuniform bankruptcy laws
that are unconstitutionally retroactive. 7 The U.S. Trustee
opposed Circuit City’s requests, maintaining that Congress’s temporary, prospective increase in quarterly fees
for a subset of Chapter 11 cases is not retroactive and
does not implicate any constitutional uniformity issues.
2.
a.
By its Bankruptcy Opinion of July 15, 2019, the bankruptcy court in eastern Virginia granted Circuit City’s request for relief. The court ruled that the quarterly fees
imposed could be classified either as a tax or as a user fee
under the Bankruptcy Code and, under either designation, the 2017 Amendment contravenes both the Bank-

As explained more fully below, in November 2020, the Fifth Circuit
reversed the February 2019 Buffets decision of the bankruptcy court.
See Matter of Buffets, L.L.C., 979 F.3d 366 (5th Cir. 2020).
6

7
In explaining his retroactivity contention, the Circuit City Trustee
asserts, inter alia, that the 2017 Amendment’s application to pending
cases contravenes the Due Process Clause of the Fifth Amendment,
in that it deprived bankruptcy debtors of fair notice.

11a
ruptcy Clause and the Uniformity Clause of the Constitution. See Bankruptcy Opinion 14. 8 If the quarterly fees
are a tax, according to the Opinion, the 2017 Amendment
contravenes the Uniformity Clause because such fees are
not applied in a geographically uniform manner. Id. Alternatively, if the quarterly fees are Chapter 11 user fees,
the Opinion ruled that the 2017 Amendment is yet unconstitutional because it violates the Bankruptcy Clause,
which empowers Congress to establish uniform laws for
bankruptcy in the United States. Id. For support, the
Opinion relied on the fact that, for the first three quarters
of 2018, the Judicial Conference did not increase quarterly fees in the Bankruptcy Administrator districts. Id.
at 12. As the Opinion explained, the Bankruptcy Administrator districts imposed the amended quarterly fee
schedule for bankruptcy cases filed after on or October 1,
2018. With these underpinnings, the Opinion ruled that
the quarterly fees owed by the Circuit City Trustee under
the 2017 Amendment “since January 1, 2018, [are unconstitutional and] must be determined based on the prior
version of the statute.” Id. at 14.
b.
The Bankruptcy Opinion also addressed Circuit City’s
retroactivity contention. As the Opinion explained, Congress had not explicitly defined the 2017 Amendment’s
temporal reach. See Bankruptcy Opinion 10. It was thus
8
The Bankruptcy Clause of the Constitution provides, in pertinent
part, that Congress may “establish . . . uniform Laws on the subject
of Bankruptcies throughout the United States.” See U.S. Const. art.
I, § 8, cl. 4. The Uniformity Clause, on the other hand, relates only to
taxation and empowers Congress to “lay and collect [t]axes . . . ; but
all Duties, Imposts, and Excises shall be uniform throughout the
United States.” See id. at cl. 1.

12a
for the courts to decide whether the 2017 Amendment applied to bankruptcy cases pending when the Amendment
became effective. The Opinion then ruled that the increased quarterly fees in Trustee districts do not contravene any anti-retroactivity principles of the Constitution
because, despite the variance in expectations, the 2017
Amendment is “substantively prospective” rather than
retroactive. Id. at 11 (citing Landgraf v. USI Film
Prods., 511 U.S. 244, 269 n.24 (1994) (“Even uncontroversially prospective statutes may unsettle expectations and
impose burdens on past conduct: a new property tax or
zoning regulation may upset the reasonable expectations
that prompted those affected to acquire property.”)).
c.
In August 2019, the U.S. Trustee appealed to the district court, challenging the Bankruptcy Opinion’s ruling
that the 2017 Amendment is unconstitutional due to a lack
of uniformity. The Circuit City Trustee then cross-appealed the Opinion’s ruling on retroactivity. The parties
jointly sought permission for direct appeals, bypassing
the district court and urging that the constitutional issues
relating to the 2017 Amendment present questions of law
“as to which there [are] no controlling decision[s] of [this
Court] or of the Supreme Court” and involve matters of
“public importance.” See J.A. 413-16 (citing 28 U.S.C.
§ 158(d)(2)(A)(i) (authorizing certification to court of appeals by “all the appellants and appellees . . . acting
jointly”)). By Order of November 6, 2019, we granted the
joint petition for these appeals, and we possess jurisdiction pursuant to that Order.

13a
II.
We generally review a bankruptcy court’s factual
findings for clear error and its legal rulings de novo. See
In re Birmingham, 846 F.3d 88, 92 (4th Cir. 2017). Because the relevant facts underlying these appeals are undisputed, the applicable standard of review is de novo.
III.
In his appeal, the U.S. Trustee maintains that the
2017 Amendment is constitutional and lawful in all respects. He thus challenges the Bankruptcy Opinion’s ruling that the 2017 Amendment is unconstitutionally nonuniform and contravenes the Bankruptcy Clause and the
Uniformity Clause. The Circuit City Trustee, on the
other hand, maintains that the bankruptcy court ruled
correctly on the uniformity issue being challenged by the
U.S. Trustee. The Circuit City Trustee urges in his crossappeal, however, that the 2017 Amendment’s increased
fee schedule constitutes an unconstitutional retroactive
imposition of quarterly fees. We will assess these appeals
in turn.
A.
The U.S. Trustee maintains that the bankruptcy court
in eastern Virginia erroneously ruled that that 2017
Amendment’s fee increase is unconstitutional. In making
that ruling, the Bankruptcy Opinion relied on both the
Bankruptcy Clause and the Uniformity Clause. With respect to his Uniformity Clause challenge, the U.S. Trustee finds support in the Fifth Circuit’s ruling last year—
reversing the decision of the Texas bankruptcy court relied on in the Bankruptcy Opinion—that Chapter 11
quarterly fees are user fees. See Matter of Buffets, L.L.C.,

14a
979 F.3d 366, 376 n.7 (5th Cir. 2020). Put succinctly, because the Uniformity Clause only applies to taxes, as the
U.S. Trustee maintains and as the Fifth Circuit correctly
ruled, that Clause is inapplicable here. Id. (citing U.S.
Const. art. I, § 8, cl. 1 (“Congress may ‘lay and collect
[t]axes . . . ; but all Duties, Imposts, and Excises shall be
uniform throughout the United States.’”)).
Because the Bankruptcy Opinion incorrectly relied on
the Uniformity Clause, the uniformity ruling is left with
only one other basis—that the 2017 Amendment violates
the Bankruptcy Clause. The Bankruptcy Clause relates
to the uniformity issue because Congress is empowered
therein to establish uniform bankruptcy laws throughout
the United States. The Bankruptcy Opinion, relying on
that Clause and the Uniformity Clause, and drawing support from the now reversed decision of the Texas bankruptcy court, ruled that the 2017 Amendment is constitutionally flawed.
The U.S. Trustee contends that the quarterly fees being challenged here fail to implicate either the Uniformity
Clause or the Bankruptcy Clause, because the 2017
Amendment is not a substantive bankruptcy law. Accordingly, he maintains that the 2017 Amendment is not subject to either of the uniformity requirements. Of importance, the Fifth Circuit has reversed the Texas bankruptcy court decision on which the Bankruptcy Opinion
relied, stating that “every bankruptcy court dealing with
a challenge to the 2017 Amendment” has rejected the contention that the Amendment is not a law “on the subject
of Bankruptcies.” See Buffets, 979 F.3d at 377. We are
persuaded to the Fifth Circuit’s view, in that—as explained further below—there is no constitutional uniformity problem posed by the 2017 Amendment.

15a
To be constitutionally uniform, “[a] law enacted pursuant to the Bankruptcy Clause must: (1) apply uniformly
to a defined class of debtors; and (2) be geographically
uniform.” See In re SCI Direct, LLC, No. 17-61735, 2020
WL 5929612, at *10 (Bankr. N.D. Ohio Sept. 22, 2020) (citing Ry. Labor Execs.’ Ass’n v. Gibbons, 455 U.S. 457, 473
(1982)). The Bankruptcy Clause, however, “is not a straitjacket that forbids Congress to distinguish among classes
of debtors.” See Gibbons, 455 U.S. at 469. In fact, as the
Supreme Court has emphasized, “[a] bankruptcy law may
be uniform and yet may recognize the laws of the State in
certain particulars, although such recognition may lead to
different results in different States.” Id. (internal quotation marks omitted). In the proper circumstances, Congress may “take into account differences that exist between different parts of the country, and . . . fashion legislation to resolve geographically isolated problems.” Id.;
see also Reg’l R.R. Reorganization Cases, 419 U.S. 102,
159-61 (1974) (recognizing that Act of Congress applicable only to rail carriers in certain regions and to carriers
reorganizing within certain time period was uniform under the Bankruptcy Clause, in that it was designed to
solve specific regional problem).
Several bankruptcy courts have recently addressed
similar constitutional challenges to the 2017 Amendment,
and most of those courts have ruled that the Amendment
does not present a constitutional uniformity problem. 9 As
At least ten bankruptcy courts have addressed the uniformity question that we assess today, and six of those courts have ruled in favor
of constitutionality. See In re John Q. Hammons Fall 2006, LLC, 618
B.R. 519, 524-26 (Bankr. D. Kan. 2020) (reviewing uniformity question that we assess with respect to 2017 Amendment and ruling—as
we do today—in favor of constitutionality); In re MF Glob. Holdings
Ltd., 615 B.R. 415, 446-48 (Bankr. S.D.N.Y. 2020) (same); Point.360
9

16a
explained below, the Fifth Circuit’s Buffets decision correctly resolved the uniformity issue concerning the 2017
Amendment’s quarterly fee increase and its application
to debtors in the Trustee and Administrator districts. See
Buffets, 979 F.3d 366.
The Buffets debtors filed their bankruptcy proceedings in the Western District of Texas in 2016. Those proceedings were pending in 2018 when the increased quarterly fees required by the 2017 Amendment went into effect. After the Buffets debtors declined to pay the increased fees and challenged the constitutionality of the
2017 Amendment on uniformity grounds, the bankruptcy
court agreed with the debtors and ruled that the Amendment was not uniform and thus unconstitutional. The U.S.
Trustee in Texas appealed, and—as in these appeals—
the uniformity issue was certified to the court of appeals.

v. Office of the U.S. Trustee, No. 2:19-ap-01442 (Bankr. C.D. Cal. Mar.
31, 2021) (same); In re Mosaic Mgmt. Grp., Inc., 614 B.R. 615, 623-25
(Bankr. S.D. Fla. 2020) (same); In re Clayton Gen., Inc., No. 15-64266,
2020 Bankr. LEXIS 842 at *27 (Bankr. N.D. Ga. Mar. 30, 2020)
(same); In re Exide Techs., 611 B.R. 21, 36-38 (Bankr. D. Del. 2020)
(same).
On the other hand, four bankruptcy courts have addressed the
same uniformity question that we assess and ruled—as did the Bankruptcy Court in eastern Virginia—that the challenged 2017 Amendment is unconstitutional. See In re Circuit City Stores, Inc., 606 B.R.
260, 269-70 (Bankr. E.D. Va. 2019) (addressing uniformity question
and ruling that challenged 2017 Amendment is unconstitutional); In
re Life Partners Holdings, Inc., 606 B.R. 277, 286-88 (Bankr. N.D.
Tex. 2019) (same); In re Buffets, LLC, 597 B.R. 588, 594-95 (Bankr.
W.D. Tex. 2019) (same), rev’d, 979 F.3d 366 (5th Cir. 2020); USA
Sales, Inc. v. Office of the U.S. Trustee, 2021 WL 1226369, at *17-18
(C.D. Cal. Apr. 1, 2021) (same).

17a
After concluding that the uniformity requirement of
the Bankruptcy Clause is likely applicable to the 2017
Amendment, the Fifth Circuit decided that there is “no
uniformity problem” with the Amendment. See Buffets,
979 F.3d at 377. That decision was made after a careful
assessment of the applicable authorities, and the court of
appeals recognized that “the uniformity requirement forbids only arbitrary regional differences in the provisions
of the Bankruptcy Code.” Id. at 378 (internal quotation
marks omitted). As the court explained, however, the uniformity requirement does not deny Congress the power
to enact legislation that resolves regionally isolated problems. Id. According to the Fifth Circuit, when Congress
determined that it needed to remedy a shortfall in funding for the Trustee districts, it was entitled to “solve the
evil to be remedied with a fee increase in just the underfunded districts.” Id. (internal quotation marks omitted).
Thus, the court of appeals explained, “[i]t is reasonable
for Congress to have those who benefit from the Trustee
program fill the hole in its finances.” Id. at 380.
As emphasized by the Fifth Circuit, the Bankruptcy
Clause forbids only “arbitrary” geographic differences.
And the Supreme Court has never held that a statute contravened the Bankruptcy Clause because of arbitrary geographic distinctions. For example, in the railroad setting, the Court allowed Congress to establish a special
court and enact statutes to benefit bankrupt rail carriers
in the northeast and midwest, as those were the only railroads facing the problem. See Reg’l R.R. Reorganization
Cases, 419 U.S. at 159-61.
Just as it had successfully addressed the failure of certain railroads, Congress was confronted here with a U.S.
Trustee problem. The 2017 Amendment drew a program-

18a
specific distinction that only indirectly has a geographic
impact. See Buffets, 979 F.3d at 378. Although the
Amendment may render it more expensive for some debtors in Virginia—as opposed to North Carolina or Alabama—to go through Chapter 11 proceedings, the 2017
Amendment does not draw an arbitrary distinction based
on the residence of the debtors or creditors. Instead, the
distinction is simply a byproduct of Virginia’s use of the
Trustee program. By increasing quarterly fees for large
Chapter 11 bankruptcies in Trustee districts, Congress
solved the shortfall in the program’s funding. The Administrator districts, which are funded by the judiciary’s general budget, did not face a similar financial issue. Because
only those debtors in Trustee districts use the U.S. Trustees, Congress reasonably solved the shortfall problem
with fee increases in the underfunded districts. Id.
As recognized by the Fifth Circuit, the Ninth Circuit
had observed in 1995 that the establishment of separate
Trustee and Administrator districts was an “irrational
and arbitrary” distinction for which Congress had given
“no justification.” See St. Angelo, 38 F.3d at 1532. The
2017 Amendment, however, does not suffer from any such
shortcoming. Congress has provided a solid fiscal justification for its challenged action: to ensure that the U.S.
Trustee program is sufficiently funded by its debtors rather than by the taxpayers. Because the 2017 Amendment does not contravene the uniformity mandate of either the Uniformity Clause or the Bankruptcy Clause, we
are constrained to reverse the bankruptcy court and resolve appeal No. 19-2240 in favor of the U.S. Trustee. 10
The U.S. Trustee also contends on appeal that the combined application of § 1930(a)(6)(B) and 1930(a)(7) of Title 28 ensure that any
quarterly fee increases would apply equally to all judicial districts.
10

19a
B.
Turning to the cross-appeal pursued by the Circuit
City Trustee, we must decide whether the 2017 Amendment impermissibly applies to bankruptcy cases that
were pending when the Amendment took effect. As explained heretofore, the bankruptcy court in Virginia characterized the 2017 Amendment as substantively prospective, and thus not in violation of any anti-retroactivity constitutional principles. On appeal, the Circuit City Trustee
contends that, regardless of the statutory language, applying the new quarterly fees to pending bankruptcy
cases is unconstitutionally retroactive. The Circuit City
Trustee thus contends that the “exponential statutory increase” in quarterly fees could not have been anticipated
when Circuit City’s bankruptcy reorganization plan was
confirmed. See Br. of Appellee 6.

See Br. of Appellant 29-32. As such, the Trustee maintains, any discrepancy in impact would be merely a byproduct of implementation
efforts, rather than unlawful congressional action. Id. Of possible relevance to this proposition, Congress amended § 1930(a)(7) of Title 28
and replaced the word “may” with the word “shall.” Subsection (a)(7)
now reads: “In districts that are not part of a United States trustee
region . . . the Judicial Conference of the United States shall require
the debtor in a case under chapter 11 of title 11 to pay fees equal to
those imposed by paragraph (6) of this subsection.”
The U.S. Trustee promptly submitted to our panel a post-argument Local Rule 28(j) letter, pointing out this amendment but positing that it is merely a clarifying amendment that further confirms
that Congress never gave the Judicial Conference discretion to
charge unequal fees. The Liquidating Trustee failed to respond to the
U.S. Trustee’s Rule 28(j) letter and has not contested the proposition
it espouses. Because we rule that the 2017 Amendment is constitutional, we need not further address this additional argument of the
U.S. Trustee.

20a
Applying a statute to events occurring before it was
enacted gives rise to Fifth Amendment due process concerns. See Landgraf v. USI Film Prods., 511 U.S. 244,
266 (1994). Indeed, such a retroactive application may deprive a party of adequate notice and undermine “settled
expectations.” Id. at 265. In assessing the retroactive impact of legislation, the courts have utilized a two-step
analysis. Id. at 280. First, applying ordinary tools of statutory construction, we ask whether Congress “has expressly prescribed the statute’s proper reach.” Id.; see
also Fernandez-Vargas v. Gonzales, 548 U.S. 30, 37
(2006). And, if Congress did so, “this is the end of the analysis.” See Appiah v. INS, 202 F.3d 704, 708 (4th Cir.
2000). Only if that effort fails do the courts proceed to the
second step. At step two, a reviewing court must determine whether applying the new provision results in an impermissible retroactive consequence by “affecting substantive rights, liabilities, or duties on the basis of conduct
arising before its enactment.” See Fernandez-Vargas,
548 U.S. at 37 (quoting Landgraf, 511 U.S. at 278). The
question for the cross-appeal is thus whether the 2017
Amendment, by its terms, applies to bankruptcy cases
that were pending prior to January 1, 2018. If Congress
was not clear, we must then decide whether an application of the Amendment to those pending bankruptcy
cases will lead to impermissibly retroactive consequences.
As the text of the 2017 Amendment indicates, Congress intended for the increased quarterly fees to apply
to all Chapter 11 cases. The bankruptcy fees provision
mandates that quarterly fees be paid “in each case” and
“for each quarter . . . until the case is converted or dismissed,” without limitation based on when the case was

21a
filed. See 28 U.S.C. § 1930(a)(6)(A). In the 2017 Amendment, Congress directed that “[t]he amendments made
by this section”—i.e., the increase in quarterly fees for
the larger Chapter 11 cases—“shall apply to quarterly
fees payable under section 1930(a)(6) . . . for disbursements made in any calendar quarter that begins on or after the date of enactment.” See Bankruptcy Judgeship
Act of 2017, Pub. L. No. 115-72, § 1004, 131 Stat. 1224,
1232 (2017). The Amendment thus makes clear that Congress intended for the increase to apply to all Chapter 11
quarterly fees due in January 2018 or thereafter, without
regard to the case’s filing date.
Notwithstanding the statutory provision, the Circuit
City Trustee contends that Congress never intended for
the 2017 Amendment to apply to bankruptcy cases that
were pending prior to January 1, 2018. The Circuit City
Trustee relies on a 1996 amendment of the same statute
and argues that Congress was “crystal clear” in 1996 that
the amendment was intended to apply to current cases.
See Br. of Appellee 22-23. That contention reflects a critical misunderstanding of the 1996 amendment. It was
only after several courts reached divergent conclusions
about whether Congress intended for the 1996 amendment to apply to ongoing bankruptcy cases that Congress
enacted “clarifying legislation,” making it explicit that
pending cases were covered. Cf. Brown v. Thompson, 374
F.3d 253, 259 & n.2 (4th Cir. 2004). Unlike the 1996
amendment, the 2017 Amendment plainly applies to all
disbursements made after its effective date.
Even if its terms were somehow ambiguous, however,
the 2017 Amendment would have no “retroactive effect”
because—consistent with Supreme Court precedent—it
does not “impair rights a party possessed when he acted,

22a
increase a party’s liability for past conduct, or impose new
duties with respect to transactions already completed.”
See Landgraf, 511 U.S. at 280. Although there is a presumption against the retroactive application of statutes,
that presumption only applies if there is a possibility that
a statute “attaches new legal consequences to events
completed before its enactment.” Id. at 270. The 2017
Amendment plainly applies only to future disbursements,
which are triggered by a debtor’s conduct occurring after
the law’s effective date. See F.D.I.C. v. Faulkner, 991
F.2d 262, 266 (1993) (“A statute’s application is usually
deemed prospective when it implicates conduct occurring
on or after the statute’s effective date.” (citations omitted)).
Of importance here, the Fifth Circuit’s Buffets decision correctly resolved the retroactivity challenge to the
2017 Amendment. See 979 F.3d at 374-76. The court of
appeals applied the Amendment only to disbursements
made after its effective date. Id. at 374. After evaluating
the congressional history for applying fee increases to
disbursements made after an effective date, the court
concluded that Congress had always made fee increases
so applicable. Id. Its decision compared the increased
quarterly fees to property taxes that increase after the
purchase of a home. And the Fifth Circuit ruled that the
challenged fee increase is not impermissibly retroactive
because it does not impair rights that debtors possessed
when they filed for bankruptcy protection, nor does it increase liability for conduct that had already occurred. Id.
at 375-76. Instead, this quarterly fee increase merely upsets debtors’ “expectations as to amounts owed based on
future distributions.” Id. at 375.

23a
In these circumstances, Congress clearly intended for
the 2017 Amendment to apply to all disbursements made
after its effective date, and it intended for the Amendment to be prospective. It does not increase a debtor’s “liability for past conduct, or impose new duties with respect to transactions already completed.” See Landgraf,
511 U.S. at 280. Although the Circuit City Trustee correctly posits that the Amendment increases the quarterly
fees that large Chapter 11 debtors will pay, such debtors
were reasonably expected to pay fees pursuant to some
formula. Accordingly, we are also constrained to reject
the Circuit City Trustee’s challenge to the Bankruptcy
Opinion’s retroactivity ruling and resolve appeal No. 192255 in favor of the U.S. Trustee.
IV.
Pursuant to the foregoing, we resolve appeal No. 192240 by reversing the bankruptcy court’s ruling that the
2017 Amendment is unconstitutionally nonuniform. In
appeal No. 19-2255, we affirm the bankruptcy court’s decision that the 2017 Amendment is not unconstitutionally
retroactive. Finally, we remand for such other and further proceedings as may be appropriate.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED
QUATTLEBAUM, Circuit Judge, concurring in part and
dissenting in part:
Make no mistake about it. We have two types of bankruptcy courts in the United States. Forty-eight states operate as part of the United States Trustee Program under which Unites States Trustees aid the courts in the administration and management of bankruptcy cases. But

24a
two states—Alabama and North Carolina—operate under a different system. They use Bankruptcy Administrators rather than United States Trustees. And the differences extend beyond titles. Some Chapter 11 debtors in
districts that employ the United States Trustees pay materially more in quarterly fees than similarly situated
debtors in districts that employ Bankruptcy Administrators. Those fee differences, in turn, trickle down and reduce the amounts unsecured creditors receive. Therefore, many unsecured creditors in the forty-eight states
operating under the United States Trustee Program are
receiving less of the amounts owed to them than similarly
situated unsecured creditors in Alabama and North Carolina.
The Constitution prohibits this lack of uniformity. Article I, Section 8, Clause 4 of the Constitution, known as
the Bankruptcy Clause, grants Congress the power to establish “uniform Laws on the subject of Bankruptcies
throughout the United States.” Because I believe a faithful application of the Constitution’s Bankruptcy Clause
renders the statutory scheme permitting these different
quarterly fees unconstitutional, I respectfully dissent
from the portion of Section III-A of the majority’s opinion
that finds to the contrary. I concur as to the remainder of
the majority’s well-reasoned opinion.
I.
To understand how we arrived at the point where we
have two types of bankruptcy courts, I begin with some
background. “Before 1978, bankruptcy judges were responsible for the administration of individual bankruptcy
cases, including such tasks as appointing trustees to cases
and monitoring individual cases.” U.S. GOV’T
ACCOUNTABILITY OFF., GAO-GGD-92-133, BANKRUPTCY

25a
ADMINISTRATION: JUSTIFICATION LACKING FOR
CONTINUING TWO PARALLEL PROGRAMS 3 (1992) [hereinafter GAO Report]. “This responsibility placed administrative, supervisory, and clerical functions on judges in
addition to their judicial duties.” Id. at 3–4.
In an attempt to lessen these functions, in 1978, Congress “launched a trustee pilot program within the Department of Justice.” Matter of Buffets, L.L.C., 979 F.3d
366, 370 (5th Cir. 2020) (citing Bankruptcy Reform Act of
1978, Pub. L. No. 95-598, 92 Stat. 2549, 2662–65 (1978)).
The program successfully reduced the administrative duties of bankruptcy judges and increased oversight of the
bankruptcy system. Thus, in 1986, Congress permanently created the United States Trustee Program. The
Trustee Program is overseen by the Department of Justice’s Executive Office for United States Trustees
(“EOUST”), which “provide[s] legal, administrative, and
management support to the individual [United States
Trustee] districts.” GAO Report at 4.
But the Trustee Program only operates in forty-eight
states, as “[t]he six districts in Alabama and North Carolina fall under the Bankruptcy Administrator program,
which the Judicial Conference oversees.” Buffets, 979
F.3d at 370. Bankruptcy Administrator districts do not
benefit from “[t]he centralized support and oversight that
the EOUST and its regional offices provide . . . .” GAO
Report at 4. Instead, “[e]ach of the six [Bankruptcy Administrator] districts is independent, operating as a separate entity.” Id. The Bankruptcy Administrator program “in each district is headed by a Bankruptcy Administrator who is selected by the U.S. Court of Appeals for
a term of 5 years.” Id. at 4–5. “It was originally thought
that the exclusion of Alabama and North Carolina would

26a
last only a few years, but a later law enshrined their special status.” Buffets, 979 F.3d at 370 n.1 (citing Federal
Courts Improvement Act of 2000, Pub. L. No. 106-518,
§ 501, 114 Stat. 2410, 2421–22 (2000)). As the Acting
United States Trustee (“U.S. Trustee”) conceded at oral
argument, Alabama and North Carolina’s refusal to participate in the Trustee Program is not based on any
unique attributes of those states. They simply prefer to
use Bankruptcy Administrators rather than Trustees.
The two systems are, therefore, candidly and unapologetically nonuniform. And the quarterly fees that Chapter 11
debtors pay in the Trustee Program and the Bankruptcy
Administrator system are also non-uniform.
The way in which the two systems impose quarterly
fees relates to the ways the two systems are funded. The
Trustee Program is funded primarily by fees from debtors. Id. at 371. Debtors in Chapter 11 cases pay fees based
on quarterly “disbursements” that are made until their
cases are “converted or dismissed.” 1 28 U.S.C.
§ 1930(a)(6). Initially, Chapter 11 debtors in Bankruptcy
Administrator districts were not required to pay these
substantial quarterly fees. Buffets, 979 F.3d at 371. Instead, the Bankruptcy Administrator system was funded
by the judiciary’s general budget. Id. at 371. That meant
that, in Bankruptcy Administrator districts, funding from
United States taxpayers was not offset by Chapter 11
quarterly fees. See id.

Logistically, the Trustee Program is funded by congressional appropriations; however, the appropriation is offset by fees paid into the
United States Trustee System Fund. See 28 U.S.C. § 589a(b) (directing that various fees should be deposited into the United States Trustee System Fund to offset the congressional appropriation).

1

27a
In 1994, the United States Court of Appeals for the
Ninth Circuit, facing arguments much like those presented to us, ruled that the lack of quarterly fees in Bankruptcy Administrator districts violated the United States
Constitution’s Bankruptcy Clause, which “empowers
Congress to enact ‘uniform Laws on the subject of Bankruptcies throughout the United States.’” See St. Angelo v.
Victoria Farms, Inc., 38 F.3d 1525, 1529 (9th Cir. 1994)
(quoting U.S. Const. art. I, § 8, cl. 4). The Court noted that
“bankruptcy law[s] may have different effects in various
states due to dissimilarities in state law as long as the federal law itself treats creditors and debtors alike.” Id. at
1531. Because Chapter 11 debtors were only required to
pay quarterly fees in districts participating in the Trustee
Program, unsecured creditors in those districts received
less money from debtors than they would have if the cases
were filed in Alabama or North Carolina. See id. at 1531–
32. Absent a justification for treating these debtors and
creditors differently based solely on their geographic location, the Court ruled that the quarterly fee statute did
“not apply uniformly to a defined class of debtors.” Id. at
1532.
After the St. Angelo decision, Congress enacted 28
U.S.C. § 1930(a)(7) which empowered “the Judicial Conference to set fees in [Bankruptcy] Administrator districts that were ‘equal to those imposed’ in Trustee districts.” Buffets, 979 F.3d at 371. Critically, however, the
amended quarterly fee statute was permissive as to
Bankruptcy Administrator districts. It did not require
equivalent fees. It merely allowed them. See 28 U.S.C.
§ 1930(a)(7) (2018) (“In districts that are not part of a
United States trustee region . . . the Judicial Conference
of the United States may require the debtor in a [Chapter

28a
11 case] to pay fees equal to those imposed [in Trustee
Program districts] . . . .” (emphasis added)). 2 If the Judicial Conference elected to impose quarterly fees, those
funds were required to be deposited into a fund to offset
appropriations from the federal judiciary’s general
budget. See Buffets, 979 F.3d at 371 (citing 28 U.S.C.
§ 1931).
“The Judicial Conference soon exercised the authority Congress gave it, charging quarterly fees in Administrator districts in the amounts specified in 28 U.S.C.
§ 1930 . . . .” Id. (internal quotation marks omitted). This
seemingly—at least in practice—eliminated the specific
uniformity problem. That changed a few years ago, however, when bankruptcy filings declined and revenue from
quarterly fees decreased. Id. With reduced fees, the
Trustee Program was unable to make ends meet. Id.
Thus, in response to its budgetary shortfall, Congress
amended 28 U.S.C. § 1930(a)(6) to increase the quarterly
fees in Chapter 11 cases. Id. Specifically, beginning January 1, 2018, Congress temporarily increased the quarterly fees for the largest Chapter 11 debtors, requiring
debtors with quarterly disbursements “equal or exceed[ing] $1,000,000” to pay “the lesser of 1 percent of
such disbursements or $250,000.” 28 U.S.C.
§ 1930(a)(6)(B) (2018). This increase in quarterly fees applies “[d]uring each of fiscal years 2018 through 2022, if
the balance in the United States Trustee System Fund as
As noted below, Congress recently amended the language of
28 U.S.C. § 1930(a)(7) to require Bankruptcy Administrator districts
to impose equivalent fees. Therefore, because this case involves a
challenge to the imposition of quarterly fees prior to the recent
amendment, all citations to § 1930(a)(7) refer to the version of the
statute in effect prior to the amendment unless otherwise specified.

2

29a
of September 30 of the most recent full fiscal year is less
than $200,000,000 . . . .” Id.
Important here, “[m]any courts in Trustee districts
applied the new fees to any quarterly disbursements that
postdated the effective date of the 2017 Amendment, even
if the bankruptcy case had been pending before the fee
increase.” Buffets, 979 F.3d at 372. This was a dramatic
increase for large debtors. Prior to the amendment, debtors whose quarterly disbursements exceeded $30,000,000
were required to pay a $30,000 fee. 28 U.S.C. § 1930(a)(6)
(2012). After the amendment, however, those debtors
were required to pay a $250,000 fee—an increase of more
than 800%. See 28 U.S.C. § 1930(a)(6)(B) (2018).
The Bankruptcy Administrator districts did not immediately follow suit and increase their fees. Buffets, 979
F.3d at 372. “The Judicial Conference waited until September 2018 to adopt the increased fee schedule.” Id. But
the nine-month delay was not the only difference under
the two systems. In Bankruptcy Administrator districts,
the significantly increased quarterly fees applied only in
cases “filed on or after October 1, 2018.” Id. (internal quotation marks omitted). This led to vastly disparate fees
paid by similarly situated debtors in different districts.
II.
With that background in mind, I turn now to the facts
here. In 2008, Circuit City Stores, Inc. and its affiliates
(“Circuit City”) filed for Chapter 11 bankruptcy protection in the Eastern District of Virginia, which participates
in the United States Trustee Program. In September
2010, the bankruptcy court confirmed Circuit City’s proposed liquidation plan (the “Liquidating Plan”). “The Liq-

30a
uidating Plan provided for the formation of the Liquidating Trust, overseen by the Liquidating Trustee, to collect,
administer, distribute, and liquidate all of [Circuit City’s]
remaining assets.” J.A. 365 (footnote omitted). The Liquidating Plan further required the Liquidating Trustee to
“pay quarterly fees to the U.S. Trustee until the Chapter
11 Cases are closed or converted and/or the entry of final
decrees.” J.A. 110.
Circuit City’s bankruptcy cases were pending as of
January 1, 2018, when the increased quarterly fee schedule took effect. It was, therefore, required to pay the increased fees. And the increased fees were far from nominal. “In the seven years between entry of the order confirming the Liquidating Plan and the effective date of section 1930(a)(6)(B), the Liquidating Trust paid approximately $833,000 in quarterly fees.” J.A. 371 (footnote
omitted). “In the first three quarters of 2018 alone, the
Liquidating Trust paid approximately $632,000.” J.A.
371. Without the increased quarterly fees, Circuit City
would have paid $56,400—a difference of approximately
$575,600. 3
Recognizing the potential uniformity issues, the Liquidating Trustee moved to determine the extent of its liability for post-confirmation quarterly fees. The Liquidating Trust raised three arguments: (1) the amended
quarterly fee statute was impermissibly applied to cases
pending prior to its enactment; (2) the amended quarterly
3
The quarterly fee figures offered by the United States Trustee appear to differ from the amounts referenced by the Liquidating Trustee and the bankruptcy court. Regardless of the specific amount, it is
undisputed that the Liquidating Trustee paid exponentially higher
quarterly fees in 2018 than it would have in a Bankruptcy Administrator district.

31a
fee statute was non-uniform in violation of the Bankruptcy Clause of the United States Constitution; and
(3) the amended quarterly fee statute was non-uniform in
violation of the uniformity requirement in the Taxing and
Spending Clause of the United States Constitution. 4 The
bankruptcy court rejected the Liquidating Trustee’s retroactivity argument. However, it found that
§ 1930(a)(6)(B) violated both the Bankruptcy Clause and
the uniformity provision of the Taxing and Spending
Clause. I agree with the majority’s decision on retroactivity and the uniformity provision of the Taxing and Spending Clause. But I would affirm the bankruptcy court’s
holding that § 1930(a)(6)(B) violates the Bankruptcy
Clause.
Simply put, the imposition of quarterly fees in the two
bankruptcy systems is not uniform. Many Chapter 11
debtors in Trustee Program districts pay more than similarly situated debtors in Bankruptcy Administrator districts. As a consequence, similarly situated creditors receive less in Trustee Program districts than in Bankruptcy Administrator districts. How then does the U.S.
Trustee justify this obvious lack of uniformity? He offers
three reasons that I address in turn.
A.
First, the U.S. Trustee argues that the Constitution’s
uniformity requirement only applies to substantive bank-

4
“The Congress shall have Power To lay and collect Taxes, Duties,
Imposts, and Excises, to pay the Debts and provide for the common
Defence and general Welfare of the United States; but all Duties, Imposts and Excises shall be uniform throughout the United States.”
U.S. Const. art. I, § 8, cl. 1.

32a
ruptcy laws. To illustrate his point, the U.S. Trustee refers to 28 U.S.C. § 158(b)(1), which authorizes each circuit
court to determine whether to establish a bankruptcy appellate panel, as a non-substantive bankruptcy law that is
not uniformly implemented. Moreover, the U.S. Trustee
argues that important aspects of bankruptcy practice—
such as prescribing fees that an attorney or private trustee may charge and the waiver of certain fees for debtors
or creditors—vary at the district level. He contends that
those provisions are not substantive and, as a result, do
not violate Article I, Section 8, Clause 4 of the Constitution. And he then argues that § 1930(a)(6)(B) likewise is
not a substantive bankruptcy law and, thus, not constitutionally infirm.
However, there are several problems with this argument. Initially, the U.S. Trustee offers no precedent in
support of his substantive versus non-substantive distinction. In fact, as the Fifth Circuit recognized, every bankruptcy court that has addressed this argument has rejected it. See Buffets, 979 F.3d at 377. This is hardly surprising since the Supreme Court has “defined ‘bankruptcy’ as the ‘subject of the relations between an insolvent or nonpaying or fraudulent debtor and his creditors,
extending to his and their relief.’ ” Ry. Labor Execs. Ass’n
v. Gibbons, 455 U.S. 457, 466 (1982) (quoting Wright v.
Union Central Life Ins. Co., 304 U.S. 502, 513–14 (1938)).
The differences in § 1930(a)(6) and (a)(7) fit squarely
within this definition.
What’s more, there is a world of difference between
the provisions cited by the U.S. Trustee and those at issue
here. Of course, certain bankruptcy practices will vary at
the local level. Bankruptcy courts must have the flexibil-

33a
ity to operate in the most appropriate and efficient manner possible given their locality and staffing. But unlike
various local rules or the existence of bankruptcy appellate panels, the disparate application of § 1930(a)(6)(B)
regularly leads to similarly situated debtors paying more
in fees and less to creditors in Trustee Program districts
than they would in Bankruptcy Administrator districts.
The bankruptcy court below provided a succinct example:
“Had the Debtors filed their chapter 11 bankruptcy petitions a mere 140 miles south in Raleigh, North Carolina,
the Debtors would be paying substantially lower quarterly fees than they are paying now.” J.A. 376 (footnote
omitted). Certainly, statutes that alter the amounts similarly situated creditors receive based on geography are
sufficiently substantive to implicate the Bankruptcy
Clause.
B.
The U.S. Trustee next argues that § 1930(a)(6)(B) is,
in any event, uniform. He insists that § 1930(a)(7) “mandates that quarterly fees in bankruptcy-administrator
districts be ‘equal to those imposed by [section
1930(a)(6)].’” Appellant’s Br. at 28 (quoting 28
§ 1930(a)(7)). Not so. Section 1930(a)(7) states that, in
Bankruptcy Administrator districts, “the Judicial Conference of the United States may require the debtor in a
[Chapter 11 case] to pay fees equal to those imposed by
[§ 1930(a)(6)].” 28 U.S.C. § 1930(a)(7) (2018) (emphasis
added). If the operative version of § 1930(a)(7) used the
word “shall” rather than “may,” this would be an entirely
different case.
Illustrating this point, on January 12, 2021, during the
pendency of this appeal, President Donald J. Trump
signed the Bankruptcy Administration Improvement Act

34a
of 2020, Pub. L. 116-325, 134 Stat. 5085 (2021). The Act
fixed the uniformity problem by striking the word “may”
from § 1930(a)(7) and inserting the word “shall.” Pub. L.
116-325, 134 Stat. at 5088. The Act further noted that its
purpose was to “confirm the longstanding intention of
Congress that quarterly fee requirements remain consistent across all Federal judicial districts.” Id. at 5086.
The U.S. Trustee submitted a Rule 28(j) letter alerting
the Court to this legislative change and arguing that the
Act merely clarified, rather than changed § 1930(a)(7). I
disagree. As is evident from the nine-month delay in implementing the increased quarterly fees, the unambiguous language of § 1930(a)(7) prior to the Act vested the
Judicial Conference with discretion to assess increased
quarterly fees. The Act constitutes a commendable congressional effort to remedy an unconstitutional statute.
While that likely ameliorates the uniformity issue going
forward, it does not eliminate the problem in the as-applied challenge before us.
That is so because the Act does not address the other
critical difference between § 1930(a)(6) and (a)(7). Remember, in Bankruptcy Administrator districts, the increased quarterly fees only applied to cases filed after October 1, 2018. But in Trustee Program districts, the increased quarterly fees not only applied to disbursements
in all cases filed after January 1, 2018, but also to all cases
pending as of January 1, 2018. Therefore, because the increased quarterly fees in Trustee Program districts capture cases like this one—that was pending as of January 1, 2018—and the language of § 1930(a)(7) prior to enactment of the Act was discretionary as to Bankruptcy
Administrator districts, the U.S. Trustee’s argument that

35a
§ 1930(a)(6)(B) and (a)(7) are actually uniform is at odds
with reality.
C.
Finally, the U.S. Trustee claims that the differences
in the Trustee Program and the Bankruptcy Administrator system are not geographically based. Instead, they
are based on the unique budgetary challenges confronting Trustee Program districts. All Trustee Program districts, according to the U.S. Trustee, are treated uniformly, and, therefore, we should only inquire whether
the increased fees apply with the same force and effect in
the Trustee Program districts.
But this argument misses the forest for the trees. Justifying the differences here on the fact that the Trustee
Program districts face the budgetary problems—the
trees—ignores the fact that those districts only face the
budgetary problems because Congress treated them differently in the first place—the forest. And Congress did
that purely based on geography.
To be fair, statutes accounting for geographic differences are not automatically a problem. See Blanchette v.
Conn. Gen. Ins. Corps., 419 U.S. 102, 159 (1974) (“The
uniformity provision does not deny Congress power to
take into account differences that exist between different
parts of the country, and to fashion legislation to resolve
geographically isolated problems.” (emphasis added)).
But they are a problem if not aimed at addressing issues
that are geographical in nature. Here, the quarterly fee
statute does not “account [for] differences that exist between different parts of the country . . . .” See id. at 159.
It is not a congressional attempt “to resolve geographically isolated problems.” See id. Indeed, the difference in

36a
bankruptcy systems is arbitrary and financially damages
unsecured creditors in every state other than Alabama
and North Carolina.
In fact, a September 1992 report by the United States
Government Accountability Office found no justification
for having both the Bankruptcy Administrator and Trustee Programs. GAO Report at 16 (“We could not find any
justification for continuing two separate programs.”).
Consistent with that, when faced with the question at oral
argument whether there was anything geographically
distinct about Alabama or North Carolina that justified a
different approach in those states, the U.S. Trustee, to his
credit, conceded there was not. While the uniformity provision of the Bankruptcy Clause “was not intended to
hobble Congress by forcing it into nationwide enactments
to deal with conditions calling for remedy only in certain
regions,” Blanchette, 419 U.S. at 159 (internal quotation
marks omitted), it is a necessary safeguard to prevent
laws from arbitrarily damaging creditors and debtors as
a result of regionalism. Accordingly, while the constitutionality of the two types of bankruptcy systems is not before the court, I would nonetheless hold that the amended
quarterly fee statute, as applied to the Liquidating Trustee, violates the Bankruptcy Clause.
III.
Words have meaning, and the words of the Bankruptcy Clause are clear. I do not reach my conclusion
lightly, as I recognize that, “[i]n considering any constitutional attack on a federal statute, a court presumes that
Congress has complied with the Constitution.” United
States v. Comstock, 627 F.3d 513, 518 (4th Cir. 2010).
However, no matter how you slice it, uniform means not
different. That was true when the Constitution was

37a
drafted, and it is still true today. Thus, for the reasons
stated above, I would find that the amended quarterly fee
statute is unconstitutionally non-uniform.

38a
APPENDIX B
UNITED STATES BANKRUPTCY COURT
THE EASTERN DISTRICT OF VIRGINA
RICHMOND DIVISION
Case No. 08-35653-KRH
Chapter 11
(Jointly Administered)
IN RE: CIRCUIT CITY STORES, INC., ET AL.,
Debtors.
Filed: July 15, 2019
MEMORANDUM OPINION
Before KEVIN R. HUENNEKENS, United States
Bankruptcy Judge.
This matter comes before the Court upon the Motion
of the Liquidating Trustee to Determine Extent of Liability for Post-Confirmation Quarterly Fees Payable to
the United States Trustee Pursuant to 28 U.S.C.
§ 1930(a)(6) and Memorandum in Support [ECF No.
14197] (the “Motion to Determine”) filed by Alfred H.
Siegel (the “Liquidating Trustee”), Trustee of the Circuit
City Stores, Inc. Liquidating Trust (the “Liquidating
Trust”) and upon the United States Trustee’s Motion for
Summary Judgment on the Motion of the Liquidating
Trustee to Determine Extent of Liability for Post-Confirmation Quarterly Fees Payable to the United States
Trustee Pursuant to 28 U.S.C. § 1930(a)(6) and Memorandum in Support [ECF No. 14202] (the “Motion for

39a
Summary Judgment”) filed by the Office of the United
States Trustee (the “U.S. Trustee” and, together with the
Liquidating Trustee, the “Parties”). At issue is the proper
amount of quarterly fees assessable against the Liquidating Trust due to the recent amendment of section 1930 of
title 28 of the United States Code. The Court has subjectmatter jurisdiction over this matter pursuant to 28 U.S.C.
§§ 157 and 1334 and the General Order of Reference from
the United States District Court for the Eastern District
of Virginia dated August 15, 1984. This is a core proceeding under 28 U.S.C. § 157(b)(2)(A). Venue is appropriate
in this Court pursuant to 28 U.S.C. §§ 1408 and 1409. After considering the applicable statutory authority, the
case law, the pleadings, and the arguments of counsel, the
Court denies the relief requested in Motion for Summary
Judgment and grants the relief requested in the Motion
to Determine for the reasons set forth below. 1
On November 10, 2008 (the “Petition Date”), Circuit
City Stores, Inc. (“Circuit City”) and certain affiliates
(collectively, the “Debtors”) filed voluntary petitions under chapter 11 of title 11 of the United States Code (the
“Bankruptcy Code”). On September 14, 2010, the Court
confirmed the Debtors’ Modified Second Amended Joint
Plan of Liquidation of Circuit City Stores, Inc. and Its
Affiliated Debtors and Debtors in Possession and Its Official Committee of Creditors Holding General Unsecured Claims [ECF No. 8555, Ex. A] (the “Liquidating

Findings of fact shall be construed as conclusions of law and conclusions of law shall be construed as findings of fact when appropriate.
SeeFed. R. Bankr. P. 7052.

1

40a
Plan”). 2 The Liquidating Plan provided for the formation
of the Liquidating Trust, overseen by the Liquidating
Trustee, to collect, administer, distribute, and liquidate
all of the Debtors’ remaining assets. 3 Under the terms of
the Liquidating Plan,
[a]ll fees then due and payable pursuant to 28 U.S.C.
§ 1930, as determined by the Court at the Confirmation Hearing, shall be paid on or before the Effective
Date by the Debtors. All such fees that become due
and payable thereafter by a Debtor shall be paid by
the Liquidating Trustee. The Liquidating Trustee
shall pay quarterly fees to the U.S. Trustee until the
Chapter 11 Cases are closed or converted and/or the
entry of final decrees. 4
At the time the Liquidating Plan was confirmed in 2010,
section 1930 of title 28 provided that the payment of quarterly fees to the U.S. Trustee would range between $6,500
and $30,000. 5 In no event would the quarterly fee ever exceed $30,000 regardless of the amount of the disbursements for any given calendar quarter.

Finds. Fact, Concls. Law & Order Confirming Mod. Second Am.
Joint Plan Liquid., ECF No. 8555.
2

3

Id. Ex. A, at 1.

4

Id. Ex. A, at 46.

5

The statute provided:
$6,500 for each quarter in which disbursements total $1,000,000
or more but less than $2,000,000; $9,750 for each quarter in which
disbursements total $2,000,000 or more but less than $3,000,000;
$10,400 for each quarter in which disbursements total $3,000,000
or more but less than $5,000,000; $13,000 for each quarter in
which disbursements total $5,000,000 or more but less than

41a
In October 2017, Congress amended section 1930 of
title 28 of the United States Code to provide:
During each of fiscal years 2018 through 2022, if the
balance in the United States Trustee System Fund as
of September 30 of the most recent full fiscal year is
less than $200,000,000, the quarterly fee payable for a
quarter in which disbursements equal or exceed
$1,000,000 shall be the lesser of 1 percent of such disbursements or $250,000.
Bankruptcy Judgeship Act of 2017, Pub. L. No. 115-72,
§ 1004, 131 Stat. 1224, 1232 (codified as amended at 28
U.S.C. § 1930(a)(6)(B) (2018)) (the “Bankruptcy Judgeship Act”). 6 The amendment increased the amount of the
quarterly fees payable to the U.S. Trustee System from
a minimum of $10,000 to a maximum of $250,000 for quarters where disbursements met or exceeded $1 million. Id.
From January 1, 2018, onward, the U.S. Trustee program
has assessed and continues to assess fees based upon the
increased fee schedule for all pending chapter 11 cases. 7
But the increase in quarterly fees does not apply to all
debtors in all chapter 11 cases throughout the country.
Unlike chapter 11 debtors in areas that are part of the
$15,000,000; $20,000 for each quarter in which disbursements total $15,000,000 or more but less than $30,000,000; $30,000 for each
quarter in which disbursements total more than $30,000,000.
28 U.S.C. § 1930 (2008) (amended 2018).
The balance of the U.S. Trustee System Fund is less than
$200,000,000.

6

Chapter 11 Quarterly Fees, U.S. Dep’t Justice, https://www.justice.gov/ust/chapter-11-quarterly-fees (last visited July 11, 2019)
(making no distinction between cases pending before and cases filed
after the amendment’s effective date).
7

42a
U.S. Trustee program, chapter 11 debtors in the six federal judicial districts in Alabama and North Carolina that
operate under the Bankruptcy Administrator Program
(the “BA Districts”) may only now be subject to the increased fees, but only under certain circumstances. 8 The
statute governing quarterly fees provides that “the Judicial Conference of the United States may require the
debtor in a case under chapter 11 of title 11 [in the BA
Districts] to pay fees equal to those imposed by paragraph (6) of this subsection.” 28 U.S.C. § 1930(a)(7) (emphasis added). In 2001, the Judicial Conference of the
United States (the “JCUS”), acting according to this statutory authorization, approved a recommendation from its
Bankruptcy Committee that quarterly fees be imposed in
BA districts in the amounts specified in section
1930(a)(6). 9 But after Congress amended section
1930(a)(6) in October 2017, the BA Districts did not simultaneously increase the quarterly fees payable under
section 1930(a)(7). 10 It was not until almost a year after
Congress amended section 1930(a)(6), on September 13,
2018, that the JCUS Executive Committee approved imposing the increased quarterly fees in BA Districts “in
While the U.S. Trustee program is part of the executive branch, the
Bankruptcy Administrator (“BA”) program is part of the judicial
branch and is overseen by the Administrative Office of the United
States. In re Buffets, LLC, 597 B.R. 588, 592-93 (Bankr. W.D. Tex.
2019). Although Congress initially intended the U.S. Trustee program to operate nationwide, the BA Districts continue to function
separately within the BA program. Id. at 593.
8

Sept./Oct.
2001
Jud.
Conf.
U.S.
Rep.
http://www.uscourts.gov/sites/default/files/2001-09_0.pdf.
9

45-46,

In re Buffets, 597 B.R. at 594; see also Obj. U.S. Tr. to Mot. Determ.
¶ 68, ECF No. 14203 (the “Response”).

10

43a
the amounts specified in 28 U.S.C. § 1930(a)(6)(B) for
cases filed on or after October 1, 2018.” 11 The resulting
increase in quarterly fees payable in BA Districts “does
not have retroactive application to pending cases.” 12
Debtors that filed chapter 11 petitions prior to October
2018 do not have to pay the increased amount of the quarterly fees.
The Liquidating Trust’s quarterly disbursements exceeded $1 million for every quarter of 2018. The U.S.
Trustee program assessed and the Liquidating Trust
paid the increased amount of the quarterly fees for each
of those quarters in accordance with section
1930(a)(6)(B). 13 On March 28, 2019, the Liquidating Trustee filed the Motion to Determine, asking the Court to order “the actual amount of UST Fees due since January 1,
2018 . . . be determined based on the statutory rates in effect as of the Petition Date in this Case.” 14 The Motion to
Determine advanced two primary arguments in support

Sept.
2018
Jud.
Conf.
U.S.
Rep.
11-12,
http://www.uscourts.gov/sites/default/files/2018-09_proceedings.pdf
[hereinafter 2018 JCUS Report].

11

12
Bankr. Adm’r N. Dist. Ala., Chap. 11 Quarterly Fee Forms – with
Instrs. 1 n.1, http://www.alnba.uscourts.gov/sites/alnba/files/forms/
webqtrfees2019.pdf (last updated Jan. 30, 2019) [hereinafter N.D.
Ala. Fee Notice]; see also Bankr. Adm’r W. Dist. N.C., Notice Incr.
Chap. 11 Quarterly Fees 1, http://www.ncwba.uscourts.gov/sites/
ncwba/files/Notice%20of%20Increased%20Chapter%2011%20Quarterly%20Fees%20effective%20for%20cases%20filed%20on%20or%
20after%20October%201.pdf (Sept. 20, 2018) [hereinafter W.D.N.C.
Fee Notice].
13

See Resp. ¶¶ 11-12.

14

Mot. Determine 14.

44a
of its contention: (i) section 1930(a)(6)(B) “is unconstitutional as applied to this Case due to its lack of uniformity
for the first three quarters of 2018”; and (ii) section
1930(a)(6)(B) “cannot be retroactively applied to the
Trust for any relevant years.” 15 On May 9, 2019, the U.S.
Trustee filed the Motion for Summary Judgment and its
Response. The Motion for Summary Judgment asked the
Court to dismiss the Motion to Determine because “the
Motion [to Determine] seeks relief that can only be
sought through an adversary complaint under Rule 7001”
of the Federal Rules of Bankruptcy Procedure (the
“Bankruptcy Rules”). 16 On June 5, 2019, the Liquidating
Trustee filed the Liquidating Trust’s Response to United
States Trustee’s Motion for Summary Judgment [ECF
No. 14209]. On June 12, 2019, the Court conducted a hearing (the “Hearing”) on the foregoing matters, at which
time the Court denied the relief requested in the Motion
for Summary Judgment and took the Motion to Determine under advisement. 17
The Motion for Summary Judgment arguing for dismissal of the Motion to Determine on the grounds that it
seeks “relief that can only be pursued through an adversary proceeding” exalts form over substance. Mot.
Summ. J. ¶ 16. Bankruptcy Rule 2020, which provides for
a proceeding against the U.S. Trustee to be brought as a
15

Id.

16

Mot. Summ. J. 2.

17
The Parties, without leave of the Court, submitted post-Hearing
briefs. See Suppl. Resp. Mot. Determine [ECF No. 14213]; Liquid. Tr.
Resp. to Suppl. Resp. Mot. Determine [ECF No. 14217]. The Court
has fully considered the arguments and authorities set forth in the
supplemental pleadings.

45a
contested matter, most likely applies to the Motion to Determine. 18 Furthermore, Bankruptcy Rule 9014, which
governs contested matters, makes most of the procedural
rules included in Part VII of the Bankruptcy Rules, which
governs adversary proceedings, applicable to contested
matters. Fed. R. Bankr. P. 9014(c). That list is not exhaustive. The Court is authorized to “direct that one or
more of the other rules in Part VII shall apply” in any
particular contested matter. Id. No lack of formality need
be suffered by any party in any contested matter.
On the other hand, the Motion to Determine does seek
the type of relief included in Bankruptcy Rule 7001, which
must ordinarily be brought by complaint. The Motion to
Determine requests a determination about the amount of
quarterly fees due, a holding that section 1930(a)(6)(B) is
unconstitutionally non-uniform, and a holding that section 1930(a)(6)(B) cannot not be retroactively applied to
these cases. Mot. Summ. J. ¶¶ 1-2. The first form of relief
Bankruptcy Rule 2020 states that “[a] proceeding to contest any act
or failure to act by the United States trustee is governed by Rule
9014.” Fed. R. Bankr. P. 2020. As Bankruptcy Rule 2020 specifically
provides that any such proceeding against the U.S. Trustee is a contested matter, it would control over the more general provisions of
Bankruptcy Rule 7001. See RadLAX Gateway Hotel, LLC v. Amalgamated Bank, 566 U.S. 639, 645 (2012) (“[I]t is a commonplace of
statutory construction that the specific governs the general.” (alteration in original) (quoting Morales v. Trans World Airlines, Inc., 504
U.S. 374, 384 (1992))); Standard Indus., Inc. v. Aquila, Inc. (In re
C.W. Mining Co.), 431 B.R. 307, 2009 WL 4894278, at *5 (B.A.P. 10th
Cir. 2009) (unpublished table decision) (“[W]hen the plain language of
one bankruptcy rule specifically authorizes a party to proceed on motion, the general language of another rule should not be interpreted
so broadly as to negate the more specific.” (citing State Bank of S.
Utah v. Gledhill (In re Gledhill), 76 F.3d 1070, 1078 (10th Cir. 1996))),
aff’d, 625 F.3d 1240 (10th Cir. 2010).
18

46a
is an attempt to “determine the validity of the government’s ‘interest in property,’ ” which falls within the gambit of Bankruptcy Rule 7001(2). Mot. Summ. J. ¶ 15 (quoting Fed. R. Bankr. P. 7001(2)). The two other two requests seek “declaratory relief relating to [the Liquidating Trustee’s] upcoming proceeding to ‘recover money or
property’” and are covered by Bankruptcy Rules 7001(1)
and 7001(9). Id. ¶ 14 (quoting Fed. R. Bankr. P. 7001(1)).
But notwithstanding the U.S. Trustee’s assertions to
the contrary, this procedural conundrum does not warrant dismissal of the Motion to Determine in any event.
Rather, the Court can simply convert the contested matter to an adversary proceeding. SeePhillips v. Lehman
Bros. Holdings, Inc. (In re Fas Mart Convenience Stores,
Inc.), 318 B.R. 370 (Bankr. E.D. Va. 2004) (denying motion to dismiss and ordering underlying motion converted
to a complaint). Section 105(a) of the Bankruptcy Code
permits the court to “issue any order, process, or judgment that is necessary or appropriate to carry out the
provisions of” the Bankruptcy Code. 11 U.S.C. § 105(a);
see also Arrowsmith v. Lemberg Law, LLC (In re Health
Diagnostics Lab., Inc.), 571 B.R. 182, 192 (Bankr. E.D.
Va. 2017) (stating that section 105(a) is a “broad grant of
power” (quoting Caesars Entm’t Operating Co. v. BOKF,
N.A. (In re Caesars Entm’t Operating Co.), 808 F.3d
1186, 1188 (7th Cir. 2015))). This grant of power is broad
enough to permit a court to “convert a contested matter
to an adversary proceeding on its own motion.” Wilborn
v. Wells Fargo Bank, N.A. (In re Wilborn), 401 B.R. 872,
892 (Bankr. S.D. Tex. 2009) (citing Costa v. Marotta,
Gund, Budd & Dzera, LLC, 281 F. App’x 5, 6 (1st Cir.
2008) (per curiam); Johnson v. Stemple (In re Stemple),
361 B.R. 778, 784 (Bankr. E.D. Va. 2007)). Accordingly,

47a
the Court will deny the relief requested in the Motion for
Summary Judgment seeking dismissal of Motion to Determine, and it will instead convert this contested matter
to an adversary proceeding. 19
The Court turns next to the merits of the Motion to
Determine and to the constitutionality of section
1930(a)(6)(B). The Liquidating Trustee first challenges
the constitutionality of the amendment to section
1930(a)(6) on account of its retroactive application to
cases pending prior to enactment. Without question, the
amendment to section 1930(a)(6) dramatically increased
the quarterly fees payable by the Liquidating Trust. 20 In
the seven years between entry of the order confirming
the Liquidating Plan 21 and the effective date of section
1930(a)(6)(B), the Liquidating Trust paid approximately
19
Hr’g Tr. 10:14, June 12, 2019, ECF No. 14214. Neither of the Parties opposed conversion at the Hearing. Id. at 8:7-8, 10:12-13. Furthermore, both Parties requested that the Court proceed at the Hearing to hear argument pertaining to the merits of the Motion to Determine and the Response thereto (collectively, the “Pleadings”). Id. at
8:3-4; 10:9-10. As the Parties represented that there were no material
facts in dispute and that the matters raised in the Pleadings were
purely dispositive questions of law, the Court entertained the Pleadings as cross-motions for summary judgment under Bankruptcy Rule
7056 and proceeded thereon. Id. at 8:22-9:14; 10:5-25.

The U.S. Trustee states that “the fees [paid by the Liquidating
Trustee since the enactment of section 1930(a)(6)(B)] ranged from
$30,777 in the fourth quarter of 2018 to $232,843 in the first quarter
of 2018.” Resp. ¶ 12. The Liquidating Trustee confirms that the Liquidating Trust paid $632,542 in quarterly fees through the first three
quarters of the 2018 calendar year, “a $576,142 difference” between
the $56,400 it would have paid absent the enactment of section
1930(a)(6)(B). Mot. Determine ¶ 12.
20

21

See supra note 2.

48a
$833,000 in quarterly fees. Hr’g Tr. 13:1-9, June 12, 2019,
ECF No. 14214. In the first three quarters of 2018 alone,
the Liquidating Trust paid approximately $632,000. Id.
The Liquidating Trustee complains that this “exponential
statutory increase” was not something he could have anticipated when the Liquidating Plan was confirmed over
eight years ago. Mot. Determine. ¶ 12. If the Liquidating
Trustee had been able to anticipate such a significant
step-up in quarterly fees at the time of plan confirmation,
“there might have been different decisions made in confirmation and how the case was going to proceed thereafter.” Hr’g Tr. 13:24-14:5, June 12, 2019, ECF No. 14214.
The Liquidating Plan fixed the rights of the Liquidating
Trustee, the rights of the creditors, and the rights of all
other parties, and the substantial increase in quarterly
fees harms the holders of allowed general unsecured
claims because “fewer assets will be available for distribution to the [Liquidating Trust’s] beneficiaries.” Mot.
Determine ¶ 25.
Congress may give a law retroactive effect by “expressly prescrib[ing] the statute’s proper reach.” Landgraf v. USI Film Prods., 511 U.S. 244, 280 (1994). When
Congress does so, “this is the end of the analysis.” Appiah
v. INS, 202 F.3d 704, 708 (4th Cir. 2000). If Congress does
not define a statute’s temporal reach, “the court must determine whether the new statute would have retroactive
effect, i.e., whether it would impair rights a party possessed when he acted, increase a party’s liability for past
conduct, or impose new duties with respect to transactions already completed.” Landgraf, 511 U.S. at 280 (emphasis in original). Making this determination “is not always a simple or mechanical task.” Id. at 268. The deci-

49a
sion “comes at the end of a process of judgment concerning the nature and extent of the change in the law and the
degree of connection between the operation of the new
rule and a relevant past event.” Id. at 270.
The Court’s analysis is controlled by a prior decision
of this Court in In re AH. Robins Co., 219 B.R. 145
(Bankr. E.D. Va. 1998). In that case, the Bankruptcy
Court and the District Court, sitting together, examined
whether a 1996 amendment to section 1930(a)(6), which
required chapter 11 debtors to pay quarterly fees postconfirmation, operated retroactively. Id. at 146. Prior to
enactment of the 1996 amendment, chapter 11 debtors
only paid quarterly fees up until the time of plan confirmation. Id. at 146-47. The 1996 amendment provided that
quarterly fees would continue to accrue post-confirmation. Id. Initially, it was not clear whether the 1996
amendment only applied to cases filed after the amendment’s effective date or whether it applied to all cases
pending on the amendment’s effective date. Id. To deal
with the “staggering amount of litigation” and “widespread disparity among the courts in their attempts to
apply” the 1996 amendment, Congress intervened. Id. at
147. “[T]hrough clarifying legislation [adopted on September 30, 1996, Congress] . . . made it known that the
Amendment [was] to apply to all cases.” Id. (emphasis in
original).
Similar to the case at bar, the debtors in In re A.H.
Robins Co. had been operating under a confirmed plan
for many years at the time of the 1996 amendment and
challenged the amendment’s constitutionality based on
its retroactive application. Judge Shelley of this Court,
with Judge Merhige of the District Court concurring, determined that the 1996 amendment was supported by a

50a
rational legislative purpose and was “substantively prospective in nature,” in that it “only require[d] the payment of fees from the date of the Amendment forward.” 22
Id. at 148. The Court compared post-confirmation quarterly fees to “taxes arising post confirmation, or any similar post-confirmation expenses.” Id. (citing In re Maruko, Inc., 206 B.R. 225, 229 (Bankr. S.D. Cal. 1997)). The
quarterly fee was no more than an “administrative expense attendant to an open case.” Id. (quoting In re
McLean Square Assocs., 201 B.R. 436, 441 (Bankr. E.D.
Va. 1996)).
Like the 1996 amendment, the 2018 amendment to
section 1930(a)(6) imposed an increase in the quarterly
fees to be paid in chapter 11 cases. The Court finds that
Congress did not expressly prescribe the reach of the
2018 amendment to section 1930(a)(6), nor did it indicate
its intent for the 2018 amendment to section 1930(a)(6) to
apply retroactively through other means. Accordingly, it
is left to the Court to determine whether the statute’s application to cases pending on its effective date is impermissibly retroactive. The holding in In re A.H. Robins Co.
mandates it is not. A mere increase in the quarterly U.S.
Trustee fee is not substantively retroactive. It is more
akin to “taxes arising post confirmation, or any similar
post-confirmation expenses.” Id. (citing In re Maruko,
206 B.R. at 229)); see also Landgraf, 511 U.S. at 269 n.24
(“Even uncontroversially prospective statutes may unsettle expectations and impose burdens on past conduct:
a new property tax or zoning regulation may upset the
22
The debtor’s plan, confirmed eight years prior to the 1996 amendment, was silent on quarterly fees, but the amendment “d[id] not impermissibly modify the Plan in the case at bar . . . since such fees are
attendant to [the debtor’s] still-pending bankruptcy case.” Id.

51a
reasonable expectations that prompted those affected to
acquire property . . . .”). Based upon its prior precedent,
the Court holds that section 1930(a)(6)(B) does not violate
the antiretroactivity principle as the law is substantively
prospective.
The Court turns next to whether the amendment to
section 1930(a)(6) is unconstitutional based on non-uniformity. The fees assessed under section 1930(a)(6)(B)
may be classified either as a tax or as a user fee for chapter 11 of the Bankruptcy Code. Under either form of classification, the quarterly fees must be applied uniformly.
As a tax, Congress may “lay and collect Taxes, Duties,
Imposts and Excises . . . but all Duties, Imposts and Excises shall be uniform throughout the United States.”
U.S. Const. art. I, § 8, cl. 1. The proviso to this constitutional grant of authority to Congress is known as the
“Uniformity Clause.” The Uniformity Clause was intended to prevent the federal government from “us[ing]
its power over commerce to the disadvantage of particular States” and engaging in “the regionalism that had
marked the Confederation.” United States v. Ptasynski,
462 U.S. 74, 81 (1983). The Supreme Court has developed
a two-part test when any law is challenged under the Uniformity Clause. Where Congress elects to define the subject of a tax or duty in non-geographic terms, “the Uniformity Clause is satisfied,” but where Congress frames
its tax or duty in geographic terms, a court must “examine the classification closely to see if there is actual geographic discrimination.” Id. at 84-85.
The Bankruptcy Clause of the Constitution endows
Congress with the power to establish “uniform Laws on
the subject of Bankruptcies throughout the United
States.” U.S. Const. art. I, § 8, cl. 4. Accordingly, if the

52a
quarterly fee is characterized as a user fee attendant to
chapter 11 of the Bankruptcy Code, it must still be applied uniformly under the Bankruptcy Clause. The uniformity mandated by the Bankruptcy Clause “is geographical, and not personal.” Hanover Nat’l Bank v.
Moyses, 186 U.S. 181, 188 (1902). While the Bankruptcy
Clause “is not an Equal Protection Clause for bankrupts,” “[t]o survive scrutiny under the Bankruptcy
Clause, a law must at least apply uniformly to a defined
class of debtors.” Ry. Labor Execs.’ Ass’n v. Gibbons, 455
U.S. 457, 470 n.11, 473 (1982).
For the first three quarters of 2018, newly adopted
section 1930(a)(6)(B) increased quarterly fees assessed
against chapter 11 debtors in only 88 of the 94 federal judicial districts throughout the country. It was not until
October 1, 2018, that the JCUS approved the imposition
of quarterly fees on chapter 11 debtors in the BA Districts “in the amounts specified in 28 U.S.C.
§ 1930(a)(6)(B).” 2018 JCUS Report, supra note 11, at 1112. The Bankruptcy Judgeship Act offered no justification for excluding the BA Districts from the fee step-up.
“Under any standard of review, when Congress provides
no justification for enacting a non-uniform law, its decision can only be considered to be irrational and arbitrary.” In re Buffets, 597 B.R. at 595 (quoting St. Angelo
v. Victoria Farms, Inc., 38 F.3d 1525, 1532 (9th Cir. 1994),
amended by 46 F.3d 969 (9th Cir. 1995)). Section
1930(a)(6)(B) contravened the Uniformity Clause
through “actual geographic discrimination” for the first
three quarters of 2018. Ptasynski, 462 U.S. at 85.
Although the increased fees are now uniformly
charged nationwide for debtors filing chapter 11 cases on
or after October 1, 2018, debtors in pending cases filed

53a
before October 1, 2018 are still experiencing geographic
discrimination without a discernable explanation. JCUS
determined that “the quarterly fee calculation changes in
28 U.S.C. § 1930(a)(6)(B) should apply in BA districts beginning in the first quarter of the fiscal year 2019 (that is,
for any chapter 11 case filed on or after October 1, 2018,
and not for cases then pending).” Resp. Ex. C, at 20 (emphasis added). The fee increase “does not have retroactive application to pending cases” in BA Districts. N.D.
Ala. Fee Notice, supra note 12, 1 n.1. 23
The geographic discrimination that remains ongoing
is particularly apparent in the case at bar. Had the Debtors filed their chapter 11 bankruptcy petitions a mere 140
miles south in Raleigh, North Carolina, 24 the Debtors
would be paying substantially lower quarterly fees than
they are paying now. This is the type of “regionalism” the
Uniformity Clause was intended to prevent. Ptasynski,
462 U.S. at 81. As the BA Districts do not apply section
1930(a)(6)(B)’s fee increase to pending cases, the fee increase cannot constitutionally be applied to pending cases
outside of the BA Districts. The Court holds that section
1930(a)(6)(B) remains unconstitutionally non-uniform as
applied to pending cases.
The court in In re Buffets confined its analysis to
whether section 1930(a)(6)(B) violated the Constitution’s
See also W.D.N.C. Fee Notice, supra note 12, at 1; Hr’g Tr. 17:1724, June 12, 2019, ECF No. 14214 (“If you file a case now in Northern
District of Alabama or Western District of North Carolina, you are
subject to the new fee schedule, but if you filed a case prior to October
1, 2018, you’re on the old schedule. So it is not uniform . . . .”).
23

Both North Carolina and Virginia lie within the Fourth Circuit. But
unlike Virginia, North Carolina is a BA District.

24

54a
Uniformity Clause. This Court holds that section
1930(a)(6)(B) also violates the Constitution’s Bankruptcy
Clause. The Bankruptcy Clause requires bankruptcy
laws to be geographically uniform. Moyses, 186 U.S. at
188. Section 1930(a)(6)(B) is not geographically uniform
because qualifying chapter 11 debtors with cases pending
prior to October of 2018 have been and continue to be assessed lower quarterly fees in two regions of the country
(Alabama and North Carolina) than have similarly situated debtors throughout the rest of the country. Although
the Bankruptcy Clause “is not an Equal Protection
Clause,” Gibbons, 455 U.S. at 470 n.11, it does require
bankruptcy laws to “at least apply uniformly to a defined
class of debtors,” id. at 473. As the amendment to section
1930(a)(6) does not apply uniformly both to chapter 11
debtors with pending cases in BA districts and to chapter
11 debtors with pending cases in U.S. Trustee districts, it
is unconstitutional under the Bankruptcy Clause.
Regardless of whether the quarterly fees are classified as a tax or as a user fee for bankruptcy, the amendment to section 1930(a)(6) is unconstitutional. If the quarterly fees are treated as a tax, the amendment violates
the Uniformity Clause. If the quarterly fees are considered as a bankruptcy user fee, the amendment violates
the Bankruptcy Clause. The cost of a given bankruptcy
proceeding for similarly situated debtors must be consistent in every judicial district throughout the country.
Therefore, the Court will grant the Motion to Determine.
The quarterly fees due and payable by the Liquidating
Trust since January 1, 2018, must be determined based
on the prior version of the statute. 25 The Court makes no
25

See 28 U.S.C. § 1930(a)(6) (2008).

55a
finding as to the Liquidating Trustee’s ability to recover
any overpayments based upon the Courts ruling but
acknowledges that rights and defenses of both Parties
are reserved.
Conclusion
For the foregoing reasons, the amendment to section
1930(a)(6), while prospective in nature, is unconstitutional
as applied to this case due to its lack of uniformity with
respect to chapter 11 bankruptcy cases pending prior to
October of 2018. The Court will issue a separate order
denying the Motion for Summary Judgment, converting
this contested matter to an adversary proceeding, and
granting the Motion to Determine.
DATED:

July 15, 2019

/s/ Kevin R. Huennekens
UNITED STATES
BANKRUPTCY JUDGE
ENTERED ON DOCKET:
July 15, 2019

56a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-405
(3:08-bk-35653)
(19-03060)
In re: CIRCUIT CITY STORES, INC.; CIRCUIT
CITY STORES WEST COAST, INC.; INTERTAN,
INC.; VENTOUX INTERNATIONAL, INC.;
CIRCUIT CITY PURCHASING COMPANY, LLC;
CC AVIATION, LLC; CC DISTRIBUTION
COMPANY OF VIRGINIA, INC.; CIRCUIT CITY
PROPERTIES, LLC; KINZER TECHNOLOGY,
LLC; ABBOTT ADVERTISING AGENCY, INC.;
PATAPSCO DESIGNS, INC.; SKY VENTURE
CORP.; PRAHS, INC. (N/A); XSSTUFF, LLC;
MAYLAND MN, LLC; COURCHEVEL, LLC (N/A);
ORBYX ELECTRONICS, LLC; CIRCUIT CITY
STORES PR, LLC,
Debtors.
------------JOHN P. FITZGERALD, III, Acting United States
Trustee for Region 4,
Petitioner,
v.
ALFRED H. SIEGEL, Trustee of the Circuit City
Stores, Inc. Liquidating Trust,
Respondent.

57a

Filed: November 6, 2019
ORDER
Upon consideration of submissions relative to the petition for permission to appeal, the court grants the petition. This case is transferred to the regular docket and
assigned docket number 19-2240. The record shall be retained in the court below unless requested by this court.
A copy of this order shall be sent to the clerk of the
bankruptcy court.
For the Court
/s/Patricia S. Connor, Clerk

58a
APPENDIX D
Official Form 424 (12/15)

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
No. 3:19-cv-00536-MHL
JOHN P. FITZGERALD, III, Acting United States
Trustee,
Appellant/Cross-Appellee,
v.
ALFRED H. SIEGEL, Trustee of the Circuit City
Stores, Inc. Liquidating Trust,
Appellee/Cross-Appellant.
On Appeal from the United States Bankruptcy Court
for the Eastern District of Virginia
Filed: September 13, 2019
Certification to Court of Appeals by All Parties
A notice of appeal having been filed in the abovestyled matter on July 26, 2019, and a cross-appeal having
been filed on August 9, 2019, John P. Fitzgerald, III, Acting United States Trustee (“United States Trustee”), and
Alfred H. Siegel, Trustee of the Circuit City Stores, Inc.
Liquidating Trust (“Liquidating Trustee”) hereby certify

59a
to the court under 28 U.S.C. § 158(d)(2)(A) that a circumstance specified in 28 U.S.C. § 158(d)(2) exists as stated
below.
Leave to appeal in this matter:
 is required under 28 U.S.C. § 158(a)
X is not required under 28 U.S.C. § 158(a).
This certification arises in an appeal from a final judgment, order, or decree of the United States Bankruptcy
Court for the Eastern District of Virginia entered on July
15, 2019.
The judgment, order, or decree involves a question of
law as to which there is no controlling decision of the
court of appeals for this circuit or of the Supreme Court
of the United States or involves a matter of public importance.
[The parties may include or attach the information
specified in Rule 8006.]
This appeal arises out of the chapter 11 bankruptcy
cases filed in November 2008 by Circuit City Stores, Inc.
and certain of its subsidiaries and affiliates (collectively,
“Circuit City”). Under sections 589a and 1930(a)(6) of title
28, for every quarter that a chapter 11 case is open, statutory fees must be deposited into the United States Trustee System Fund (“Fund”) within the United States
Treasury. 28 U.S.C. §§ 1930(a)(6), 589a. These quarterly
fees are calculated on a sliding scale based on the amount
of disbursements during the calendar quarter. 28 U.S.C.
§ 1930(a)(6). In 2017, Congress amended the statute to
temporarily increase the quarterly fee payable in the

60a
largest chapter 11 cases for quarters beginning on or after January 1, 2018. This amendment is codified in 28
U.S.C. § 1930(a)(6)(B).
As part of the plan of reorganization, the bankruptcy
court approved the formation of the Circuit City Stores,
Inc. Liquidating Trust (the “Trust”) and required that
the Liquidating Trustee remit quarterly fees to the Office
of the United States Trustee. On March 28, 2019, the Liquidating Trustee filed a motion asking the bankruptcy
court to hold that (1) the 2017 amendment does not apply
to this case because such application would be unconstitutionally retroactive, and (2) the 2017 amendment is unconstitutional as applied to this case because it violates
the uniformity provision of the Bankruptcy Clause of the
Constitution, U.S. Const. Art. I, § 8, cl. 4, because bankruptcy administrator districts (six districts in Alabama
and North Carolina that do not participate in the United
States Trustee Program and instead are administered by
judicial branch employees) are collecting the increased
fees only for cases filed on or after October 1, 2018.
The bankruptcy court held that the 2017 amendment’s application to all open chapter 11 cases with qualifying disbursements after January 1, 2018, is prospective, not retroactive. The court ruled, however, that the
fee increase is unconstitutionally non-uniform under the
Bankruptcy Clause for cases filed before October 1, 2018.
The court thus issued an order permitting the Liquidating Trustee to pay fees at the old, lesser rate instead of
the amended rate.
Neither the Fourth Circuit nor the Supreme Court
has addressed the constitutionality of the 2017 amendment. These questions present “matters of public im-

61a
portance” because they could affect the fees paid or payable in other cases and significantly impact the Fund and
the public fisc. Accordingly, the United States Trustee
and the Liquidating Trustee (all appellants and appellees) jointly certify that the bankruptcy court’s order “involves a question of law as to which there is no controlling
decision of the court of appeals for the circuit or of the
Supreme Court of the United States” and it “involves a
matter of public importance.” 28 U.S.C. § 158(d)(2).
Respectfully submitted,
September 13, 2019
By: /s/ Robert B. Van Arsdale
Robert B. Van Arsdale (Va.
Bar No. 17483)
JOHN P. FITZGERALD, III
Acting United States Trustee,
Region 4
ROBERT B. VAN ARSDALE
(Va. Bar No. 17483)
Department of Justice
Office of the United States
Trustee
701 East Broad Street,
Suite 4303
Richmond, Virginia 23219
(804) 771-2310
Fax: (804) 771-2330
RAMONA D. ELLIOTT
Deputy Director/General
Counsel
P. MATTHEW SUTKO
Associate General Counsel
BETH A. LEVENE
Trial Attorney

ALFRED H. SIEGEL,
SOLELY AS TRUSTEE OF
THE CIRCUIT CITY
STORES, INC.
LIQUIDATING TRUST
/s/ Lynn L. Tavenner
Lynn L. Tavenner (VA Bar
No. 30083)
Paula S. Beran (VA Bar No.
34679)
20 North Eighth Street,
2nd Floor
Richmond, Virginia 23219
Telephone: 804-783-8300
Facsimile: 804-783-0178
Email:
ltavenner@tb-lawfirm.com
pberan@tb-lawfirm.com
-and-

62a
Department of Justice
Executive Office for the U.S.
Trustees
441 G Street, N.W., Suite 6150
Washington, DC 20530
(202) 307-1399
(202) 307-2397 Fax

Richard M. Pachulski
Andrew W. Caine (pro hac
vice request pending)
PACHULSKI STANG
ZIEHL & JONES LLP
10100 Santa Monica Blvd.,
11th Floor
Los Angeles, California 900674100
Telephone: 310-277-6910
Facsimile: 310-201-0760
E-mail:
rpachulski@pszjlaw.com
acaine@pszjlaw.com
Counsel to Alfred H. Siegel, as
Trustee of the Circuit City
Stores, Inc. Liquidating Trust

63a
APPENDIX E
1. Section 1004 of the Bankruptcy Judgeship Act of 2017,
Pub. L. No. 115-72, Div. B, § 1004, 131 Stat. 1232 (2017
Act), provides:
BANKRUPTCY FEES
(a) AMENDMENTS TO TITLE 28 OF THE UNITED
STATES CODE.—Section 1930(a)(6) of title 28, United
States Code, is amended—
(1) by striking “(6) In” and inserting “(6)(A) Except as provided in subparagraph (B), in”; and
(2) by adding at the end the following:
“(B) During each of fiscal years 2018 through 2022,
if the balance in the United States Trustee System
Fund as of September 30 of the most recent full fiscal
year is less than $200,000,000, the quarterly fee payable for a quarter in which disbursements equal or exceed $1,000,000 shall be the lesser of 1 percent of such
disbursements or $250,000.”.
(b) DEPOSITS OF CERTAIN FEES FOR FISCAL YEARS
2018 THROUGH 2022.—Notwithstanding section 589a(b)
of title 28, United States Code, for each of fiscal years
2018 through 2022—
(1) 98 percent of the fees collected under section
1930(a)(6) of such title shall be deposited as offsetting
collections to the appropriation “United States Trustee System Fund”, to remain available until expended; and
(2) 2 percent of the fees collected under section
1930(a)(6) of such title shall be deposited in the general fund of the Treasury.

64a
(c) APPLICATION OF AMENDMENTS.—The amendments made by this section shall apply to quarterly fees
payable under section 1930(a)(6) of title 28, United States
Code, as amended by this section, for disbursements
made in any calendar quarter that begins on or after the
date of enactment of this Act.
2. 28 U.S.C. 1930 (2018) provides in relevant part:
Bankruptcy fees
(a) The parties commencing a case under title 11 shall
pay to the clerk of the district court or the clerk of the
bankruptcy court, if one has been certified pursuant to
section 156(b) of this title, the following filing fees:
(1) For a case commenced under—
(A) chapter 7 of title 11, $245, and
(B) chapter 13 of title 11, $235.
(2) For a case commenced under chapter 9 of title
11, equal to the fee specified in paragraph (3) for filing
a case under chapter 11 of title 11. The amount by
which the fee payable under this paragraph exceeds
$300 shall be deposited in the fund established under
section 1931 of this title.
(3) For a case commenced under chapter 11 of title
11 that does not concern a railroad, as defined in section 101 of title 11, $1,167.
(4) For a case commenced under chapter 11 of title
11 concerning a railroad, as so defined, $1,000.
(5) For a case commenced under chapter 12 of title
11, $200.

65a
(6)(A) Except as provided in subparagraph (B), in
addition to the filing fee paid to the clerk, a quarterly
fee shall be paid to the United States trustee, for deposit in the Treasury, in each case under chapter 11 of
title 11 for each quarter (including any fraction
thereof) until the case is converted or dismissed,
whichever occurs first. The fee shall be $325 for each
quarter in which disbursements total less than
$15,000; $650 for each quarter in which disbursements
total $15,000 or more but less than $75,000; $975 for
each quarter in which disbursements total $75,000 or
more but less than $150,000; $1,625 for each quarter
in which disbursements total $150,000 or more but
less than $225,000; $1,950 for each quarter in which
disbursements total $225,000 or more but less than
$300,000; $4,875 for each quarter in which disbursements total $300,000 or more but less than $1,000,000;
$6,500 for each quarter in which disbursements total
$1,000,000 or more but less than $2,000,000; $9,750 for
each quarter in which disbursements total $2,000,000
or more but less than $3,000,000; $10,400 for each
quarter in which disbursements total $3,000,000 or
more but less than $5,000,000; $13,000 for each quarter in which disbursements total $5,000,000 or more
but less than $15,000,000; $20,000 for each quarter in
which disbursements total $15,000,000 or more but
less than $30,000,000; $30,000 for each quarter in
which disbursements total more than $30,000,000.
The fee shall be payable on the last day of the calendar
month following the calendar quarter for which the
fee is owed.
(B) During each of fiscal years 2018 through 2022,
if the balance in the United States Trustee System

66a
Fund as of September 30 of the most recent full fiscal
year is less than $200,000,000, the quarterly fee payable for a quarter in which disbursements equal or exceed $1,000,000 shall be the lesser of 1 percent of such
disbursements or $250,000.
(7) In districts that are not part of a United States
trustee region as defined in section 581 of this title,
the Judicial Conference of the United States may require the debtor in a case under chapter 11 of title 11
to pay fees equal to those imposed by paragraph (6) of
this subsection. Such fees shall be deposited as offsetting receipts to the fund established under section
1931 of this title and shall remain available until expended.
An individual commencing a voluntary case or a joint case
under title 11 may pay such fee in installments. For converting, on request of the debtor, a case under chapter 7,
or 13 of title 11, to a case under chapter 11 of title 11, the
debtor shall pay to the clerk of the district court or the
clerk of the bankruptcy court, if one has been certified
pursuant to section 156(b) of this title, a fee of the amount
equal to the difference between the fee specified in paragraph (3) and the fee specified in paragraph (1).
* * * * *
3. 28 U.S.C. 1930 (2016) provides in relevant part:
Bankruptcy fees
(a) The parties commencing a case under title 11 shall
pay to the clerk of the district court or the clerk of the
bankruptcy court, if one has been certified pursuant to
section 156(b) of this title, the following filing fees:

67a
(1) For a case commenced under—
(A) chapter 7 of title 11, $245, and
(B) chapter 13 of title 11, $235.
(2) For a case commenced under chapter 9 of title
11, equal to the fee specified in paragraph (3) for filing
a case under chapter 11 of title 11. The amount by
which the fee payable under this paragraph exceeds
$300 shall be deposited in the fund established under
section 1931 of this title.
(3) For a case commenced under chapter 11 of title
11 that does not concern a railroad, as defined in section 101 of title 11, $1,167.
(4) For a case commenced under chapter 11 of title
11 concerning a railroad, as so defined, $1,000.
(5) For a case commenced under chapter 12 of title
11, $200.
(6) In addition to the filing fee paid to the clerk, a
quarterly fee shall be paid to the United States trustee, for deposit in the Treasury, in each case under
chapter 11 of title 11 for each quarter (including any
fraction thereof) until the case is converted or dismissed, whichever occurs first. The fee shall be $325
for each quarter in which disbursements total less
than $15,000; $650 for each quarter in which disbursements total $15,000 or more but less than $75,000;
$975 for each quarter in which disbursements total
$75,000 or more but less than $150,000; $1,625 for each
quarter in which disbursements total $150,000 or
more but less than $225,000; $1,950 for each quarter
in which disbursements total $225,000 or more but
less than $300,000; $4,875 for each quarter in which

68a
disbursements total $300,000 or more but less than
$1,000,000; $6,500 for each quarter in which disbursements total $1,000,000 or more but less than
$2,000,000; $9,750 for each quarter in which disbursements total $2,000,000 or more but less than
$3,000,000; $10,400 for each quarter in which disbursements total $3,000,000 or more but less than
$5,000,000; $13,000 for each quarter in which disbursements total $5,000,000 or more but less than
$15,000,000; $20,000 for each quarter in which disbursements total $15,000,000 or more but less than
$30,000,000; $30,000 for each quarter in which disbursements total more than $30,000,000. The fee shall
be payable on the last day of the calendar month following the calendar quarter for which the fee is owed.
(7) In districts that are not part of a United States
trustee region as defined in section 581 of this title,
the Judicial Conference of the United States may require the debtor in a case under chapter 11 of title 11
to pay fees equal to those imposed by paragraph (6) of
this subsection. Such fees shall be deposited as offsetting receipts to the fund established under section
1931 of this title and shall remain available until expended.
An individual commencing a voluntary case or a joint case
under title 11 may pay such fee in installments. For converting, on request of the debtor, a case under chapter 7,
or 13 of title 11, to a case under chapter 11 of title 11, the
debtor shall pay to the clerk of the district court or the
clerk of the bankruptcy court, if one has been certified
pursuant to section 156(b) of this title, a fee of the amount

69a
equal to the difference between the fee specified in paragraph (3) and the fee specified in paragraph (1).
* * * * *

